<html>
<title> - TWO WEEKS UNTIL ENROLLMENT: QUESTIONS FOR CCIIO</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
            TWO WEEKS UNTIL ENROLLMENT: QUESTIONS FOR CCIIO
=======================================================================


                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 19, 2013

                               __________

                           Serial No. 113-84


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
87-107                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               FRANK PALLONE, Jr., New Jersey
JOSEPH R. PITTS, Pennsylvania        BOBBY L. RUSH, Illinois
GREG WALDEN, Oregon                  ANNA G. ESHOO, California
LEE TERRY, Nebraska                  ELIOT L. ENGEL, New York
MIKE ROGERS, Michigan                GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
PHIL GINGREY, Georgia                JIM MATHESON, Utah
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                JOHN BARROW, Georgia
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California
GREGG HARPER, Mississippi            DONNA M. CHRISTENSEN, Virgin 
LEONARD LANCE, New Jersey                Islands
BILL CASSIDY, Louisiana              KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     BRUCE L. BRALEY, Iowa
CORY GARDNER, Colorado               PETER WELCH, Vermont
MIKE POMPEO, Kansas                  BEN RAY LUJAN, New Mexico
ADAM KINZINGER, Illinois             PAUL TONKO, New York
H. MORGAN GRIFFITH, Virginia
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Missouri
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina
              Subcommittee on Oversight and Investigations

                        TIM MURPHY, Pennsylvania
                                 Chairman
MICHAEL C. BURGESS, Texas            DIANA DeGETTE, Colorado
  Vice Chairman                        Ranking Member
MARSHA BLACKBURN, Tennessee          BRUCE L. BRALEY, Iowa
PHIL GINGREY, Georgia                BEN RAY LUJAN, New Mexico
STEVE SCALISE, Louisiana             JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            KATHY CASTOR, Florida
PETE OLSON, Texas                    PETER WELCH, Vermont
CORY GARDNER, Colorado               PAUL TONKO, New York
H. MORGAN GRIFFITH, Virginia         GENE GREEN, Texas
BILL JOHNSON, Ohio                   HENRY A. WAXMAN, California (ex 
BILLY LONG, Missouri                     officio)
RENEE L. ELLMERS, North Carolina
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Tim Murphy, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     1
    Prepared statement...........................................     3
Hon. Henry A. Waxman, a Representative in Congress from the state 
  of California, opening statement...............................     4
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................     6
Hon. Diana Degette, a Representative in Congress from the State 
  of Colorado, opening statement.................................     8
Hon. Fred Upton, a Representative in Congress from the state of 
  Michigan, prepared statement...................................    66

                               Witnesses

Gary Cohen, Deputy Administrator and Director, Center for 
  Consumer Information and Insurance Oversight, Centers for 
  Medicare and Medicaid Services, U.S. Department of Health and 
  Human Services.................................................    17
    Prepared statement...........................................    19
    Answers to submitted questions...............................    72

                           Submitted Material

Minority memorandum..............................................    10
Article entitled, ``Randolph Hospital dismisses flap over 
  navigator grant letter from Congress,'' the Business Journal, 
  September 12, 2013, submitted by Mrs. Ellmers..................    67
Majority memorandum..............................................    69


            TWO WEEKS UNTIL ENROLLMENT: QUESTIONS FOR CCIIO

                              ----------                              


                      THURSDAY, SEPTEMBER 19, 2013

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:19 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Tim Murphy 
(chairman of the subcommittee) presiding.
    Members present: Representatives Murphy, Burgess, Gingrey, 
Scalise, Harper, Olson, Gardner, Griffith, Johnson, Long, 
Ellmers, Shimkus, DeGette, Butterfield, Castor, Welch, Tonko, 
Green, Yarmuth, Dingell, and Waxman (ex officio).
    Staff present: Sean Bonyun, Communications Director; Karen 
Christian, Chief Counsel, Oversight; Noelle Clemente, Press 
Secretary; Julie Goon, Health Policy Advisor; Brad Grantz, 
Policy Coordinator, Oversight & Investigations; Sydne Harwick, 
Legislative Clerk; Brittany Havens, Legislative Clerk; Sean 
Hayes, Counsel, Oversight & Investigations; Andrew Powaleny, 
Deputy Press Secretary; John Stone, Counsel, Oversight; Tom 
Wilbur, Digital Media Advisor; Phil Barnett, Democratic Staff 
Director; Brian Cohen, Democratic Subcommittee Staff Director, 
Senior Policy Advisor; Hannah Green, Democratic Staff 
Assistant; Elizabeth Letter, Democratic Assistant Press 
Secretary; Karen Nelson, Democratic Deputy Staff Director; 
Stephen Salsbury, Democratic Special Assistant; and Matthew 
Siegler, Democratic Counsel.

   OPENING STATEMENT OF HON. TIM MURPHY, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Murphy. Good morning. I convene this hearing of the 
Subcommittee on Oversight and Investigations. Well, in less 
than 2 weeks enrollment in qualified health plans under the 
Patient Protection Affordable Care Act will begin. It is the 
law of the land. Today we hope to discuss the many challenges 
and issues that may arise over the coming weeks. Most of the 
concerns about the law currently can be reduced to one 
question: Is the Administration ready?
    Since passage of the President's Healthcare Law, the 
Administration has consistently told us that the government 
will be ready when open enrollment begins on October 1 and the 
exchanges start on January 1. Yet our experience has shown that 
rosy predictions about the future of the Healthcare Law often 
given way to the results of this rushed and rocky 
implementation.
    The law has many problems and so much so that half of it 
was simply done away with for a year. While individuals must 
comply with the law's requirements starting on January 1 or pay 
a penalty, this is not so for businesses and companies who are 
able to delay the employer mandate for a year.
    Despite the Administration's promises about lower premiums, 
evidence continues to mount that some individuals will face 
extreme rate hikes when the exchanges open, as much as double 
the price they are currently paying. And the Administration's 
promise that if you like your coverage you can keep it rings 
especially hollow now with news reports almost every day about 
businesses moving the spouses and families of their employees 
or their retirees into the exchanges. If the President's 
promises were true, we wouldn't hear stories about major 
airlines losing millions of dollars to the Healthcare Law, and 
we wouldn't hear about the spouses of thousands of employees 
losing their coverages.
    Meanwhile, any sort of oversight over the Healthcare Law 
remains taboo for the law's defenders. Last month this 
committee sent letters to many of the recipients of federal 
funding to participate in the Navigator Program under the law. 
We asked some fairly basic questions. How many people are you 
hiring? What are you paying them? Are you performing background 
checks? We should expect that groups receiving federal dollars 
to enroll people in exchanges should have answers to those 
questions as enrollment begins in less than 2 weeks.
    In the course of this investigation the committee has had 
many productive calls with recipients of Navigator funding. I 
have had some personal meetings myself which have been very 
fruitful. In fact, many of the organizations were prepared to 
answer our questions we believe will be ready to properly 
perform their Navigator duties. Yet, we have also seen that the 
Navigator Program, like many of the programs created under the 
Healthcare Law, has been impacted by the Administration's delay 
in implementing the law.
    According to a GAO report issued in June, the 
Administration issued the Navigator grants 2 months behind 
schedule. The Administration had planned to issue the first 
round of awards in June but did not end up issuing them until 
August. The Administration had originally planned to begin 
Navigator training in July, but HHS did not finalize the 
training programs until August 29. This delay naturally reduced 
by almost half the time available to Navigators to begin 
training and preparing for enrollment.
    So today we will ask Mr. Gary Cohen, the Director of the 
Center for Consumer Information and Insurance Oversight, to 
explain how the abbreviated training schedule for Navigators 
will affect the program. We will also ask Mr. Cohen to address 
some of the concerns we have identified in our review of the 
grant applications.
    We learned that some Navigators are planning on going door 
to door to conduct enrollment activities. A report issued 
yesterday by the Oversight and Government Reform Committee 
indicates that CCIIO representatives are aware of problems 
linked to door-to-door outreach activities such as scammers 
knocking on doors and falsely representing that they are 
Navigators, and yet this activity is still permitted under the 
Navigator Program.
    We have also learned that the return on taxpayer dollars 
varies wildly among Navigator grant recipients. The 
Administration is paying one Navigator $80,000 to enroll 312 
people. That is $80,000 of taxpayer funding to enroll not even 
a person a day.
    On the other hand, other groups clearly have incredibly 
high expectations. Another applicant estimated that they would 
enroll approximately 75 percent of the individuals directly 
contacted, resulting in hundreds of thousands of enrolled 
individuals. There is a wide difference in expectations and 
workload.
    Our concerns over the safety of consumer data and health 
information remain as well. One Navigator plans to survey and 
track those who attend community meetings and another promises 
additional pay if a Navigator enrolls a certain amount of 
individuals. I have concerns about paying for that.
    Meanwhile, one Navigator told committee staff that they 
believe background checks are important, yet these are not a 
required action. Our responsibility in conducting oversight of 
Federal programs is to identify waste, fraud, and abuse, and 
the best case, asking questions about Federal spending and 
shining a light on programs can identify problems before 
taxpayer dollars are wasted and allow those problems to be 
corrected. A wait-and-see approach to oversight of the 
Healthcare Reform Law does not seem appropriate when its 
implementation has been regularly botched by delays and 
uncertainty.
    Let me add to this. As a clinician and psychologist myself, 
it was hardly ever appropriate for me or my colleagues in the 
medical field to wait until problems were at a severe or 
critical level. We like to know problems early and take action. 
That is the appropriate thing to do, and any claims that we are 
doing otherwise are inappropriate and spurious at best.
    So I welcome Mr. Cohen, and I look forward to asking 
questions about what we can expect in the coming weeks.
    [The prepared statement of Mr. Murphy follows:]

                Opening statement of the Hon. Tim Murphy

    In less than two weeks enrollment in qualified health plans 
under the Patient Protection and Affordable Care Act will 
begin. Today we hope to discuss the many challenges and issues 
that may arise over the coming weeks. Most of the concerns 
about the law currently can be reduced to one question: ``Is 
the administration ready?''
    Since passage of the president's health care law, the 
administration has consistently told us that the government 
will be ready when open enrollment begins on October 1 and the 
exchanges start on January 1. Yet, our experience has shown 
that rosy predictions about the future of the health care law 
often give way to the results of the administration's rushed 
and rocky implementation.
    The law is so problematic that half of it was simply done 
away with for a year. While individuals must comply with the 
law's requirements starting on January 1or a pay a penalty, 
this is not so for businesses and companies who were able to 
delay the employer mandate for a year. Despite the 
administration's promises about lower premiums, evidence 
continues to mount that some individuals will face extreme rate 
hikes when the exchanges open--as much as double the price they 
are currently paying. Finally, the administration's promise 
that ``if you like your coverage you can keep it'' rings 
especially hollow now, with news reports almost every day about 
businesses moving the spouses and families of their employees, 
or their retirees, onto the exchanges. If the president's 
promises were true, we wouldn't hear stories about major 
airlines losing million of dollars to the health care law, and 
we wouldn't hear about the spouses of thousands of employees 
losing their coverage.
    Meanwhile, any sort of oversight over the health care law 
remains taboo for the law's defenders. Last month, this 
Committee sent letters to many of the recipients of federal 
funding to participate in the Navigator program under the law. 
We asked some fairly basic questions: how many people are you 
hiring? What are you paying them? Are you performing background 
checks? We should expect that groups receiving federal dollars 
to enroll people in exchanges should have answers to these 
questions, as enrollment begins in less than two weeks. In the 
course of this investigation, this Committee has had many 
productive calls with recipients of Navigator funding-in fact, 
many of the organizations were prepared to answer our questions 
and we believe will be able to properly perform their Navigator 
duties.
    Yet, we have also seen that the Navigator program, like 
many of the programs created by the president's health care 
law, has been impacted by the administration's delay in 
implementing the law. According to a GAO report issued in June, 
the administration issued the Navigator grants two months 
behind schedule. The administration had planned to issue the 
first round of awards in June--they didn't end up issuing them 
until August. The administration had originally planned to 
begin Navigator training in July--but HHS did not finalize the 
training program until August 29. This delay naturally reduced 
by almost half the time available to Navigators to begin 
training and preparing for enrollment.
    Today, we will ask Mr. Gary Cohen, the Director of the 
Center for Consumer Information and Insurance Oversight, to 
explain how the abbreviated training schedule for Navigators 
will affect the program. We will also ask Mr. Cohen to address 
some of the concerns we have identified in our review of the 
grant applications. We learned that some Navigators are 
planning on going door-to-door to conduct enrollment 
activities. A report issued yesterday by the Oversight and 
Government Reform Committee indicates that CCIIO 
representatives are aware of problems linked to door-to-door 
outreach activities, such as scammers knocking on doors and 
falsely representing they are Navigators. And yet, this 
activity is still permitted under the Navigator program.
    We have also learned that the return on taxpayer dollars 
varies wildly among Navigator grant recipients. The 
administration is paying one Navigator $80,000 to enroll.312 
people. That's $80,000 of taxpayer funding to enroll not even a 
person a day. On the other hand, other groups clearly have 
incredibly high expectations: another application estimated 
that they would enroll approximately 75 percent of the 
individuals directly contacted, resulting in hundreds of 
thousands of enrolled individuals.
    Our concerns over the safety of consumer data and health 
information remain as well. One Navigator plans to ``survey and 
track...those who attend community meetings'' and another 
promises additional pay if a Navigator enrolls a certain amount 
of individuals. Meanwhile, one Navigator told Committee staff 
that they believe background checks are important, yet these 
are not a required action.
    Our responsibility in conducting oversight of federal 
programs is to identify waste, fraud, and abuse. In the best 
case, asking questions about federal spending and shining a 
light on programs can identify problems before taxpayer dollars 
are wasted--and allow those problems to be corrected. A ``wait 
and see'' approach to oversight of the health care reform law 
does not seem appropriate when its implementation has been 
regularly botched by delays and uncertainty.
    I welcome Mr. Cohen and I look forward to asking him 
questions about what we can expect in the coming weeks.

                                #  #  #

    Mr. Murphy. I now recognize Ranking Member DeGette for her 
opening statement, but she is going to yield to Mr. Waxman 
because he has another commitment this morning.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you, Mr. Chairman. Thank you, 
Representative DeGette, for yielding to me this time to make an 
opening statement.
    Oversight is important and valuable, but the Affordable 
Care Act oversight of the last 3 years has not been to 
enlighten the committee or improve the law. It appears to be 
part of the efforts by the Republican party to engage in 
partisan attacks on this law and if they could do it, even 
sabotage the Affordable Care Act.
    I released a report last month highlighting the 
unprecedented Republican campaign to undermine the law. Forty-
one repeal votes, refusals to expand Medicaid to cover millions 
of low-income Americans, and the imminent threat to shut down 
the entire Federal Government or force a catastrophic 
government default if the law is not repealed. There is no 
legitimate purpose served by the letters to 51 Navigators who 
are community groups, food banks, community health providers, 
and many similar non-political organizations tasked with trying 
to help inform the public about the Affordable Care Act 
benefits. This request was ill-timed and a serious mistake, and 
I find it amazing to hear the Chairman talk about how they 
haven't had enough time to do their job but now we are trying 
to, by the committee, divert them from doing their job by 
answering all sorts of questions.
    The letters sent to them were without a predicate or 
evidence of wrongdoing. They serve only to burden and 
intimidate these organizations just as they are beginning their 
critical work. My staff yesterday released an analysis of the 
Navigator Program. Our investigation found that Navigators will 
help millions obtain health insurance coverage, that they have 
extensive experience assisting individuals with federal and 
state benefit programs, and they have effective privacy 
protections in place.
    In short, the Republican rhetorical attacks on the 
Navigator Program I believe are unjustified and inconsistent 
with the facts. It is hard to escape the conclusion that it was 
designed to intimate these groups and discourage participation 
in the program. Thanks to the Affordable Care Act millions of 
Americans will be able to get high-quality, affordable 
insurance. The worst abuses of the insurance companies have 
been ended. This Republican approach, I believe, is bad for the 
country.
    I want to now yield the balance of my time to the gentleman 
from North Carolina, Mr. Butterfield.
    Mr. Butterfield. Thank you, Mr. Waxman, for yielding time, 
and thank you for your extraordinary leadership. You not only 
wrote the Affordable Care Act, but you got it through this 
committee. Thank you very much.
    Mr. Chairman, I am pleased to announce that tens of 
thousands of my constituents in North Carolina have already 
benefited from the Affordable Care Act. One-hundred and thirty 
thousand seniors are now eligible for Medicare preventative 
services, 41,000 children can no longer be denied coverage 
based on pre-existing conditions, 8,200 young adults now have 
coverage on their parents' plans. It has been a long path, and 
we are almost there with the beginning of open season on 
October 1, less than 2 weeks away, we will be one step closer 
to helping many Americans receive affordable and quality 
healthcare. The opening of the marketplace, the education and 
support provided by, yes, the Navigators and the outreach by 
HHS will help directly enroll 1.1 million uninsured people and 
assist an additional 7.3 million uninsured people to receive 
health insurance.
    But instead of touting the success of soon having nearly 
every American insured, my Republican friends have forced more 
than 40 votes to dismantle and defund the Act. The chairman of 
this committee in my opinion abused his investigatory authority 
by launching a fishing expedition of Navigators who received 
funding solely for the purpose of discrediting the program. 
This, Mr. Chairman, distracts the Navigators' attention. You 
know it, and I know it, from their mission of helping families 
to access health insurance.
    Someone said that many of these Navigators will be going 
door to door. I hope they will be going door to door to enroll 
every uninsured American. A North Carolina newspaper recently 
reported that one of my North Carolina Republican colleagues 
who serves on this committee said that she would be pleased if 
the Congressional Navigator inquires stymies the non-profit is 
Navigator work, and she is quoted in that article as saying, 
``If this ended up resulting in a delay, I wouldn't be unhappy 
about it.''
    This is an outrage, Mr. Chairman. I would hope that October 
1 that we would unite and make sure that every American gets 
access to affordable healthcare. The American people deserve 
it, and we need to bring this debate to a close.
    Thank you, Mr. Waxman. I will yield back to you, sir.
    Mr. Murphy. The gentleman yields back. I now recognize for 
5 minutes the gentleman from Texas, Dr. Burgess.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Burgess. Well, thank you, Mr. Chairman. I appreciate 
the recognition, and here we are a dozen days from the start 
date of October 1 where the open enrollment is going to occur. 
I don't know a whole lot more than I did the last time Mr. 
Cohen was here at the end of April of this year. Since that 
time I have been told time and time again by officials from 
Health and Human Services, Center for Medicare, Medicaid 
Services, Treasury, the White House, and of course, even you 
when you were here, Mr. Cohen, that the exchanges would 
definitely be ready to go live on October 1, 2013.
    In addition, the federal hub that is supposedly going to be 
operational in a couple of days we have not had made available 
to us any of the testing data that reportedly has been done, 
and that obviously is an important aspect that many of us 
continue to have a great deal of interest.
    Even more concerning is the fact that federal officials 
have assigned much of the responsibility for the education and 
outreach to federally-funded Navigators.
    Now, similar to the Administration's other delays, while 
Health and Human Services had initially planned to issue the 
first round of Navigator grants in June and begin training in 
July, the grants were issued on August 15, and a training 
program was not available to the Navigators until the end of 
that month. You got $67 million, $13 million more than 
originally budgeted, $67 million of taxpayer money taken by 
threat by the IRS from taxpayers across this country, $67 
million has been given out to Navigators across the Nation, and 
we don't know the purpose of that money.
    Now, I am going to reference an article from August 4 of 
2012, so this is over a year ago it appeared in the ``New York 
Times.'' The article says, ``Federal officials are looking for 
private contractors to provide in-person assistance to 
consumers and to operate call centers. A contractor will also 
help the government decide who gets federal subsidies, expected 
to average $6,000 a person, and who is exempt from the tax 
penalties that will be imposed on people who go without 
insurance.''
    Again, this is August 4 of 2012, so it is not like the 
agency didn't know this was coming. The article goes on to say, 
``Mr. Hash, the Director of the Federal Office of Health 
Reform, said that federal exchanges will operate essentially in 
the same manner as the state-based exchanges, however, they 
differ in a significant way. States have done their work in 
public, but planning for the federal exchanges has been done 
almost entirely behind closed doors.''
    I think that is one of the problems that many of us on this 
committee have with that.
    ``Sabrina Corlette,'' continuing in the article, ``Sabrina 
Corlette, a Research Professor at Health Policy Institute of 
Georgetown University, said the federal exchanges were much 
more opaque than the state exchanges.'' You have to wonder what 
value is there in opacity in that situation from an 
Administration who said it valued transparency.
    Yesterday morning people who received their copy of the 
``Wall Street Journal,'' were greeted with the headline, 
``Burden Shifts on Insurance. Firms Change Health Coverage, 
Walgreen to Give Workers Payments to Buy Plans.'' You know, 
when the healthcare law was sold by the President across this 
country, it was sold with the admonition if you like what you 
have, you can keep it. If you like your doctor, you can keep 
your doctor. If you like your health plan, you can keep your 
health plan but apparently not if you work for Walgreen's.
    You know, we get criticized on this side of the dais 
because of attempts to reign in the Affordable Care Act. No 
apology for the number of times that legislation has come to 
the floor of the House to try to pull this thing back. It has 
never been popular, it has never enjoyed popular support, it is 
becoming increasingly clear how dangerous this law is to 
people's health and healthcare, how dangerous it is to our 
economy.
    But seven times the President has signed one of those bills 
into law. So gone are the 1099 provisions, gone are the Class 
Act, gone are several other things. But here is a point that 
people miss. Seven other times the President has decided 
himself that parts of the law were unimportant, and the law 
that he signed was not, in fact, going to endure. What about 
the Pre-Existing Condition Program? This law was sold on the 
backs of people with pre-existing conditions across this 
country, and yet when someone showed up on February 1 of this 
year to enroll in the PECP Program, they were told, sorry, 
sister, the program is closed. So for 11 months people with 
pre-existing conditions who had been promised relief are just 
simply wondering the country wondering what they are supposed 
to do.
    The shop exchanges were supposed to open January 1, 2014. 
You put it off to 2015. Removing the reporting requirements and 
relying on self-attestation, delaying final contracts with 
contractors, delaying the employer mandate, removing out-of-
pocket caps, no premium information. This was promised to me by 
the Administrator of CMS----
    Mr. Murphy. The gentleman's time----
    Mr. Burgess [continuing]. In July in this committee, that I 
would have this information by September 15. Mr. Cohen, we are 
going the long way now to September 15 and if you go----
    Mr. Murphy. The gentleman's time----
    Mr. Burgess [continuing]. To the Web site today on 
healthcare.gov, it says come back and see us in a few weeks. We 
are busy trying to get it ready.
    Thank you, Mr. Chairman, for your indulgence. I will yield 
back my time.
    Mr. Murphy. Thank you. Now go to Ms. DeGette for 5 minutes.
    Ms. DeGette. Thank you very much, Mr. Chairman. Before I 
make my opening statement I would like to recognize the newest 
member of the Energy and Commerce Committee, Congressman John 
Yarmuth from Kentucky. We are very glad to have him.
    [Applause.]
    Ms. DeGette. And I would ask unanimous consent to allow him 
to participate in the hearing today. He doesn't have 
subcommittee assignments yet, but we know he is going to be on 
this fabulous subcommittee very soon.
    Mr. Murphy. Without objection.

 OPENING STATEMENT OF HON. DIANA DEGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. DeGette. Thank you very much.
    Mr. Chairman, we have spent more than our share of time in 
this subcommittee on the Affordable Care Act talking about 
implementation. It is our seventh hearing this year, and we 
really haven't seen any problems come up in all the hearings. 
So I want to thank Mr. Cohen for coming back again during a 
very busy time in his schedule as the exchanges open on October 
1.
    On this subcommittee it is our job to unearth the facts in 
an objective and non-partisan manner. So with 2 weeks to go 
before the marketplaces go live, I want to talk for a moment 
about what we have seen this year.
    We have obtained documents and conducted extensive 
investigation of health insurance premiums under the ACA, and 
what did we find out? The ACA is going to allow millions of 
Americans to obtain affordable insurance for the first time 
ever. HHS this week released a new report showing that nearly 
six in ten currently uninsured Americans, 23.2 million people, 
would be eligible to get insurance coverage for under $100 a 
month. A Kaiser Family Foundation study released earlier this 
month concluded that premiums are generally lower than 
expected. A new RAM study reached similar conclusions.
    The facts also show that individuals with health insurance 
coverage are already benefiting from the Act. The HHS revealed 
that 6.8 million customers saved an estimated $1.2 billion on 
their premiums in 2012, due to the rate review provisions in 
the ACA.
    This committee also conducted an investigation into the 
contractors responsible for implementing the ACA's 
marketplaces. This was one of my favorite hearings because what 
did the facts show? They showed that the contractors will be 
ready on October 1, that they are taking appropriate steps to 
protect consumer privacy, and as an added benefit, they are 
creating thousands of jobs.
    Last month, Mr. Chairman, you opened an investigation into 
the ACA Navigator Program. That is what we are here today for. 
You sent dozens of letters to dozens of civic and community 
groups that received grants to help their neighbors sign up for 
ACA benefits. In a letter to Chairman Upton, Ranking Member 
Waxman expressed his concern that this investigation was 
designed not to enlighten the committee but to intimidate the 
Navigators, and I am sorry to say I kind of agree with those 
criticisms.
    There seems to be little reason to put these burdens on the 
Navigators just as they were starting to get their work going 
with the public, and the Committee's investigation shows there 
is no basis for the allegations about the Navigators.
    Yesterday the minority staff released a supplemental memo 
summarizing its review of the Navigator documents. Mr. 
Chairman, I would like to ask that that be made part of the 
record.
    Mr. Murphy. Without objection.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] 

    Ms. DeGette. The investigation found that Navigators would 
help millions of people obtain health insurance coverage. They 
have extensive experience assisting individuals with federal 
and state benefit programs. Most Navigators are non-profit, 
non-partisan community service providers, and they have 
effective privacy provisions in place. Those are the facts, and 
they show good news.
    Mr. Chairman, you talked in your opening statement about 
these false Navigators that are going door to door, and that is 
a concern. That is why we have to have the real Navigators in 
place so they can sign people up, and just yesterday HHS, DOJ, 
and the FTC announced a massive anti-fraud effort. I would 
suggest we all work together to stop any kind of fraud in the 
system and with that, Mr. Chairman, I want to yield the balance 
of my time to Representative Castor.
    Ms. Castor. Well, I thank the Ranking Member for yielding 
time.
    I wanted to relay today the enthusiasm I am hearing back 
home from so many of my neighbors, particularly when it comes 
to now the bar against discrimination for our neighbors who 
have pre-existing conditions. Just over the past few weeks I 
have met with leaders and communities with multiple sclerosis, 
diabetes, HIV Aids, cancer that now see hope. They have hope 
because they will be able to get insurance for a change and not 
be discriminated against.
    Now, since September of 2010 children with these chronic 
diseases and chronic conditions have been able to get insurance 
in the greater Tampa Bay area. That has meant 237,000 children 
have been able to get insurance where before they couldn't. 
Now, beginning January 1 this will apply to adults. So they are 
particularly enthused, but at the same time they are very 
troubled by the Republican obstruction and sabotage. They don't 
understand why now people are going to block access to the 
doctor's office and affordable care.
    So I look forward to discussing that today.
    Mr. Murphy. Thank you. The gentlelady's time has expired.
    By the way, I also want to recommend the Chairman of 
Environment and the Economy here, Mr. Shimkus, is going to sit 
on this hearing. Thank you for being here.
    I will now swear in the witness.
    I will introduce him. Mr. Cohen is the Deputy Administrator 
and Director of the Center for Consumer Information and 
Insurance Oversight, recently served as General Counsel for 
California Health Benefits Exchange, and we will swear in the 
witness.
    [Witness sworn.]
    Mr. Murphy. You are now under oath and subject to the 
penalties set forth in Title XVIII, Section 1001 of the United 
States Code. You may now please give a 5-minute summary of your 
written testimony.

  TESTIMONY OF GARY COHEN, DEPUTY ADMINISTRATOR AND DIRECTOR, 
   CENTER FOR CONSUMER INFORMATION AND INSURANCE OVERSIGHT, 
CENTERS FOR MEDICARE AND MEDICAID SERVICES, U.S. DEPARTMENT OF 
                   HEALTH AND HUMAN SERVICES

    Mr. Cohen. Good morning, Chairman Murphy, Ranking Member 
DeGette, and members of the subcommittee. I look forward to 
answering your questions regarding CMS's ongoing work to 
implement the Affordable Care Act, including the Navigator 
Program.
    As we approach the beginning of open enrollment, CMS and 
all of our partners across the country are focused on helping 
people sign up for affordable healthcare coverage that begins 
on January 1. We are already seeing competition works. The 
creation of new marketplaces is encouraging insurers to offer 
plans at competitive rates.
    As a result, in 16 states preliminary rates are 19 percent 
less expensive than the CBO projected. States are using their 
improved rate review powers to help keep rates affordable and, 
according to recent estimates as Congresswoman DeGette 
mentioned, many consumers may be able to pay $100 or less per 
person per month for coverage in 2014.
    When open enrollment begins on October 1, it is one more 
step toward putting in place one of the core promises of the 
Affordable Care Act: affordable, accessible health coverage 
that begins next year. We are working hard to ensure that 
consumers have the information they need about their coverage 
options. Healthcare.gov has received more than 3 million unique 
visits since its re-launch this summer, and as required by the 
law, CMS has awarded grants to over 100 organizations to serve 
as Navigators.
    These grantees are groups and organizations with a proven 
ability to reach out to likely marketplace consumers in their 
local communities. Navigators include the Pennsylvania 
Association of Community Health Centers, which since 1981 has 
been supporting community health centers across the state in 
their mission of providing access to quality primary 
healthcare. There are organizations like Ascension Healthcare, 
which is the Nation's largest Catholic and non-profit health 
system; the Martin Luther King Health Center, which has been 
serving the people in Shreveport, Louisiana, since 1986; the 
University of Mississippi Medical Center; the United Way of 
Metropolitan Tarrant County, which will be collaborating with 
17 other organizations in assisting Texas residents and which 
has been helping people in the Fort Worth and Arlington areas 
for 90 years; and the University of Georgia, which was founded 
in 1785, as the Nation's first state-chartered university.
    I find the suggestion that these organizations, that the 
United Way or the University of Georgia or any of the rest are 
going to prey on people by stealing their identities to be 
utterly without foundation. Helping people is the reason that 
these organizations exist.
    Navigators are prepared to provide accurate and impartial 
assistance to consumers shopping for health insurance coverage. 
They will be required to adhere to strict privacy and security 
standards including how to safeguard a consumer's personal 
information. Navigators will be required, the individuals will 
be required to complete approximately 20 hours of initial 
training to be certified, will take additional training 
throughout the year, and will renew their certification yearly.
    The work they will be doing is similar to work that has 
been done for years by SHPS to help Medicare beneficiaries 
understand their options. I find it really unfortunate that 
many of these organizations are facing distracting scrutiny 
while they prepare to begin this important work.
    One organization, a group prepared to serve individuals in 
four states, withdrew from the program as a result of this 
scrutiny. This type of scrutiny risks creating an insinuation 
that these well-respected organizations and institutions like 
food banks, large state universities, and United Way chapters 
have somehow done something inappropriate before they have 
spoken to a single consumer. These groups are trying to do the 
same type of work they have done in their communities for years 
and in some cases decades, and it is unfortunate that they are 
the subject of inquiries that suggest they are doing something 
wrong by helping people in their communities enroll in 
healthcare coverage. They are feeling obligated to spend time 
responding to inquiries and insinuations that they are hiring 
unqualified staff or won't follow federal grant regulations 
instead of beginning the task of helping people in their 
communities. It is disappointing that their resources and 
attention have been diverted at this critical time.
    I have been asked countless times over the last year 
whether we will be ready for day one, and it often brings to my 
mind the implementation of Medicare Part D. Now, I wasn't at 
CMS during Medicare Part D implementation, but I read the news 
stories like everyone else, and I understand that there were 
some serious challenges; seniors not enrolled correctly in 
plans, beneficiaries turned away from pharmacies without their 
medications. But CMS solved these problems, and the Part D 
Program is now strong and successful.
    And if you ask beneficiaries about Part D today you won't 
hear, oh, that is the program that had so many problems when it 
launched. Instead you will hear, that is the program that helps 
me afford my medication.
    And I believe that will be the story of the Affordable Care 
Act. The people actually benefiting from the law won't be 
talking about what happened on October 1 or on January 1. They 
will talk about how their child can get health coverage even 
though he has a pre-existing condition. They will talk about 
how they no longer have to pay more for premiums just because 
they are women. They will talk about how they finally decided 
they could retire because they can now afford coverage they buy 
on their own. They will talk about the security of not having 
to face bankruptcy due to a diagnosis.
    We may encounter some bumps when open enrollment begins, 
but we will solve them because it is what we do. We are here to 
help people get health insurance, and we at CMS take this 
responsibility very seriously.
    Thank you, and I am happy to answer your questions.
    [The prepared statement of Mr. Cohen follows:]

    [GRAPHIC] [TIFF OMITTED] 


    Mr. Murphy. Thank you. I now recognize myself for 5 minutes 
and start out by saying, Mr. Cohen, I want you to understand 
the function of this committee. Lack of readiness or 
preparation on your part does not constitute a reason that 
Congress gives up its responsibilities to have oversight. So I 
hope you have an open mind as we go through this. You have 
previously been here at a hearing before. You told us 
everything was fine. It was like the scene in ``Animal House,'' 
where the person is saying, remain calm, all is well, while 
chaos reigns.
    So let me ask you a few things here. On July 22 members of 
this committee wrote to Secretary Sebelius requesting 
information on the price of health insurance to be offered in 
the federal and federal state exchanges. HHS still hasn't 
announced the approved plans and premium prices. Am I correct?
    Mr. Cohen. That is true.
    Mr. Murphy. OK. Now, that letter was sent requesting what 
plans and prices would be available to consumers in the federal 
exchanges. When will this information be made public?
    Mr. Cohen. Consumers will be able to go online and see what 
plans are available to them on October 1.
    Mr. Murphy. So are you able today with less than 2 weeks 
before enrollment begin to provide any information on prices 
and availability for federal exchanges?
    Mr. Cohen. My understanding is that we will be putting out 
some information on rates soon.
    Mr. Murphy. And certainly it is important for the 
Navigators to know what kind of products they are selling, and 
training was essential for that. So they do not have this 
information, yet, either?
    Mr. Cohen. Navigators will not be selling any products.
    Mr. Murphy. They will be advising people about products 
that they can then choose themselves. Am I correct?
    Mr. Cohen. They will be advising, providing information, 
impartial information about consumers' options for purchasing 
affordable healthcare through the marketplaces. Yes.
    Mr. Murphy. I understand that, which is advising them of 
the things the person can then choose.
    So turning to the Navigators more, now, originally this 
program was intended to cost $54 million. Correct?
    Mr. Cohen. At one time we put out a funding opportunity 
announcement for $54 million.
    Mr. Murphy. That is right, and then you ended up spending 
$67 million. Correct?
    Mr. Cohen. We increased in order to be able to provide more 
outreach----
    Mr. Murphy. Right.
    Mr. Cohen [continuing]. And more help for people across----
    Mr. Murphy. Well, in June, 2013, a GAO report stated CMS 
expected to spend $54 million in the program. Are you familiar 
with that report?
    Mr. Cohen. There have been a lot of GAO reports.
    Mr. Murphy. Well, this relates to what you do for a living, 
so I would hope you would see that one. On July 21, 2013, CMS 
Administrator, Marilyn Tavenner, wrote to this committee 
answering some questions we had about the Navigator Program. In 
that letter she stated that the Navigator Program would cost 
$54 million. Two weeks later HHS announced that the Navigator 
grants would total $67 million, a $13 million increase.
    So when did HHS make that decision to increase funding for 
the Navigator Program? Do you have any idea of the date of 
that?
    Mr. Cohen. I do not.
    Mr. Murphy. And what funding did HHS use for this 13 
million increase in the budget for what you do?
    Mr. Cohen. I am sure we can get that information for you.
    Mr. Murphy. You have no idea? Suddenly it appeared and you 
don't know where it came from?
    Mr. Cohen. No. I know that we have had an ongoing interest 
in making sure that we can do as much outreach and help as many 
people get enrolled in coverage as possible, and additional 
resources were----
    Mr. Murphy. Yesterday the Administration announced new 
initiatives to combat fraud under the Healthcare Law by 
creating a call center along with rapid-response measures to 
address privacy and cyber security issues. Can you address what 
these will entail?
    Mr. Cohen. I know that we have a call center now. The call 
center is live now. I think the announcement was that there 
will be a way for people to report any instances of fraud, and 
we are working interagency to work with the FDC, for example, 
to make sure that the appropriate people get that information.
    Mr. Murphy. So you agree the potential for fraud exists 
then?
    Mr. Cohen. There has actually been fraud before the 
Affordable Care Act, and so this is not the first program that 
has ever been subject to fraud, and I imagine that there will 
be fraud that occurs.
    Mr. Murphy. But you are aware it is a possibility, and you 
are going to watch this very carefully?
    Mr. Cohen. We are.
    Mr. Murphy. We will be following up on that. Now, privacy 
is extremely important. Are the Navigators bound by the HIPAA 
laws with regard to the laws for healthcare people and----
    Mr. Cohen. Well, the Navigators will have absolutely no 
access to personal health information.
    Mr. Murphy. But they may get some in the process. Someone 
may say which plan will cover, I have this kind of an illness, 
I have this sort of problem. They may get that not necessarily 
soliciting it, and so will there be any laws binding them to 
confidentiality in not keeping those records.
    Mr. Cohen. Well, the terms of the grant and the terms of 
the cooperative agreement that we have with Navigators spells 
out very clearly their obligations with respect to keeping----
    Mr. Murphy. Correct, but I know I talked to one navigator 
group from Pennsylvania who I think is going to do a good job 
on this because they are already bound by HIPAA laws but not 
all have that in terms of how they will keep their records, 
what they will tell employees to do. And so my question is are 
there any laws in place that prevent people from maintaining or 
sharing information that may be healthcare related?
    Mr. Cohen. So there are, and the Affordable Care Act in 
particular provides a $25,000 fine per occurrence if anyone 
uses any information obtained in the course of helping someone.
    Mr. Murphy. That is obligation for the Navigators?
    Mr. Cohen. Yes.
    Mr. Murphy. OK. Will Navigators be going door to door?
    Mr. Cohen. We will be issuing instructions to Navigators 
that they should not be going door to door.
    Mr. Murphy. So that will be the ruling you will have with 2 
weeks left, they will not be doing that?
    Mr. Cohen. That is right.
    Mr. Murphy. They will remain in other public places?
    Mr. Cohen. They can't be enrolling anyone now because no 
one can be enrolling now, so in terms of going door to door to 
solicit people to enroll in coverage, they will be instructed 
not to do that, and it is timely because no one can be going 
door to door enrolling anyone because no one can enroll today.
    Mr. Murphy. Thank you.
    I now recognize Ms. DeGette for 5 minutes.
    Ms. DeGette. Thank you, Mr. Chairman.
    Now, briefly, Mr. Cohen, what is the purpose of the 
Navigator Program?
    Mr. Cohen. The purpose of the Navigator Program is to 
educate people with respect to the benefits under the 
Affordable Care Act and then to provide objective, impartial 
help to them if they want it, in finding out what they are 
eligible for and enrolling in coverage.
    Ms. DeGette. And can you move your mike a little closer? 
Thanks. And who decides who these certified Navigators are 
going to be?
    Mr. Cohen. We had a grants process much like every grants 
process that is----
    Ms. DeGette. So you had a panel that edited the 
applications, and they tried to choose people who had 
experience and some kind of presence in the community. Correct?
    Mr. Cohen. First they were screened by the Office of Grants 
Management at CMS and then there was an independent panel that 
selected the ones that had scored----
    Ms. DeGette. OK, and in order to receive a Navigator grant, 
the applicant has to demonstrate they have existing 
relationships or could establish relationships with employers. 
Is that correct?
    Mr. Cohen. Correct.
    Ms. DeGette. And Navigator awardees have to complete a 
training program, including 20 to 30 hours of an HHS-developed 
program. Is that right?
    Mr. Cohen. That is true.
    Ms. DeGette. And they have to pass an exam. Is that right?
    Mr. Cohen. Yes.
    Ms. DeGette. And part of that exam includes understanding 
privacy and affordability programs. Is that right?
    Mr. Cohen. Yes.
    Ms. DeGette. So those people to get the Navigator grants, 
they have to certify that they are going to comply with any 
privacy of HIPAA or any other law. Is that correct?
    Mr. Cohen. Right.
    Ms. DeGette. Now, under the Affordable Care Act--let me 
back up. Right now when somebody signs up before the ACA, when 
they signed up for health insurance, people would often have to 
fill out applications as long as 35 pages. Is that correct?
    Mr. Cohen. That is right.
    Ms. DeGette. And those applications included divulging all 
kinds of personal medical information because that was 
necessary for the insurance companies to figure out what the 
insurance rates, because they could discriminate on pre-
existing condition and gender and all kinds of other issues. 
Right?
    Mr. Cohen. Yes.
    Ms. DeGette. But right now under the ACA none of that pre-
existing condition information is even relevant. Isn't that 
right?
    Mr. Cohen. That is true.
    Ms. DeGette. So to sign up on the marketplaces and 
exchanges, people aren't even going to have to divulge that 
kind of information. Is that right?
    Mr. Cohen. That is true.
    Ms. DeGette. So even if a navigator went to the door and 
was trying to explain to somebody about the exchanges, they 
wouldn't have to get that information from somebody. Right?
    Mr. Cohen. It is not part of the application. Correct.
    Ms. DeGette. Right, but even if somebody just kind of off-
handedly talked about their information, the Navigator would be 
trained that that is private. Right?
    Mr. Cohen. Correct.
    Ms. DeGette. OK. Now, I want to ask you some other 
questions about the marketplaces. Now, are the marketplaces 
going to be up and going on October 1?
    Mr. Cohen. They will.
    Ms. DeGette. Is the federal exchange going to be up and 
going on October 1?
    Mr. Cohen. It will.
    Ms. DeGette. And that goes, as I understand, people can go 
on the marketplace for a 6-month period to sign up. Is that 
correct?
    Mr. Cohen. That is true.
    Ms. DeGette. So if somebody wanted, somebody like, for 
example, a member of Congress, wanted to go on the federal 
marketplace and look and see what plans were available, they 
could go on October 1. Right?
    Mr. Cohen. They will.
    Ms. DeGette. But then they would have some additional time 
to sort through all those plans and figure out what they 
wanted. Is that right?
    Mr. Cohen. Yes.
    Ms. DeGette. Now, if they do sign up, their coverage starts 
January 1, 2014. Is that right?
    Mr. Cohen. That is the earliest they can start. Yes.
    Ms. DeGette. Right. Now, 23 states including Colorado and 
the District of Columbia are either running their own 
marketplaces or they are doing a marketplace in partnership 
with the Federal Government. Is that correct?
    Mr. Cohen. Yes.
    Ms. DeGette. Will those states be ready for enrollment for 
the start of coverage on January 1?
    Mr. Cohen. My understanding from our communications with 
the states is that all of them will be opening for open 
enrollment on October 1.
    Ms. DeGette. OK. Now, can you give me a sense of the 
milestones and benchmarks that this subcommittee should be 
looking at to measure the progress over the next few weeks and 
months, because we keep hauling people in here. Everybody says 
they are ready. So I would like to know what are the benchmarks 
that we should be looking for?
    Mr. Cohen. Well, I think that there are two types of 
benchmarks. One are the sort of internal types of benchmarks, 
how is the call center response time working, how is the Web 
site working, you know, those kinds of things that just--how 
are our systems functioning, and then, of course, there are the 
external--how many people are getting enrolled. I would say 
that we don't anticipate a huge amount of enrollment 
necessarily in October because as you've pointed out coverage 
starts in January, and people have until December 15 to pay 
their premium.
    Ms. DeGette. Right. OK, and I guess you are prepared if 
there are glitches to address those glitches quickly. Is that 
right?
    Mr. Cohen. Absolutely. We are very well mobilized.
    Ms. DeGette. Mr. Chairman, I just want to say one more 
thing. I said this before, but when we did Medicare Part D, 
even though I voted against it and I opposed it, I did outreach 
to my constituents, and I got my newsletter that I sent out to 
everybody. I will let you look at it if you want to. We can put 
it in the record, but I would suggest to everybody on both 
sides of the aisle, it is incumbent to all of us as elected 
officials to try to get as many people enrolled in this program 
as we can who don't have insurance now. I think it would be a 
good idea. I hope it works, and I think we should all hope it 
works.
    Thank you.
    Mr. Murphy. Thank you, and I hope that all those people 
from IBM, Xerox, and UPS who have been cut from their insurance 
plan will be able to look at that.
    I now yield 5 minutes to Mr. Burgess.
    Mr. Burgess. Thank you, Mr. Chairman.
    Mr. Cohen, if I heard correctly in response to a question 
from Chairman Murphy, you said that the Navigators would not be 
going door to door. Is that correct?
    Mr. Cohen. The federal grantees will be getting 
instructions that Navigators are not to go door to door for the 
purposes of enrolling anyone. Yes.
    Mr. Burgess. Could I ask you? You have an evidence binder 
there next to you. Could I ask you to turn for a moment to Tab 
2 in that binder? All right. In that project abstract summary, 
so I assume this is the summary that the company or the group 
provided you in their application to receive monies from the 
Navigator Grant Program. The second paragraph of that summary 
reads, ``The proposed program will deploy 25 exchange 
Navigators in each of the targeted counties. Exchange 
Navigators will seek out uninsured eligible country residents 
by going door to door.''
    Is that consistent with your statement to Chairman Murphy 
that the Navigators would not be going door to door?
    Mr. Cohen. Sure. We are going to tell them they shouldn't 
be going door to door, and I am sure they are going to abide by 
our terms and conditions.
    Mr. Burgess. But they applied for a grant, and they told 
you that they are going to seek out eligible individuals by 
going door to door. Did you read the application?
    Mr. Cohen. So first of all I want to say I have never seen 
this before. I had no role at all in the grant award process, 
so I am seeing it for the first time now. I understand that 
that is what they said in there. I see those words. They are 
going to be instructed from us as part of our agreement with 
them not to go door to door, and I am confident, Congressman, 
they will obey that instruction.
    Mr. Burgess. Well, then I have this question for you. Do 
you know how many money they received in their grant?
    Mr. Cohen. I would have to look it up.
    Mr. Burgess. It was $1.2 million. I will help you. My next 
question is can we have the money back? They provided an 
application to you which was approved in the Navigator Program 
and yet they outlined an activity which you said is going to be 
expressly prohibited.
    Mr. Cohen. I am confident they will find other activities 
that will be very well suited to helping people get enrolled in 
coverage and that they will be a wonderful grantee.
    Mr. Burgess. I am confident the taxpayer would like to have 
their $1.2 million back if the grant application was approved 
based on information which you said would make it ineligible 
for approval.
    Mr. Cohen. I didn't say that, Congressman.
    Mr. Burgess. Let me ask you this, and I have a series of 
questions, and in the time-honored tradition of this committee, 
I am going to ask for a yes or no response. Will the enrollment 
process be ready October 1 of this year?
    Mr. Cohen. Consumers will be able to go online, they will 
be able to get a determination of what tax subsidies they are 
eligible for, they will be able to look at the plans that are 
available where they live, they will be able to see the premium 
net of subsidy that they would have to pay, and they will be 
able to choose a plan and get enrolled in coverage beginning 
October 1.
    Mr. Burgess. Let me rephrase the question. Will the 
enrollment process be ready by October 1 of this year?
    Mr. Cohen. I have nothing further to add to my answer.
    Mr. Burgess. Your answer sounded as if it could be a yes 
but left room for a no. So we will mark down an equivocal 
response to that question.
    Will the excahnges be ready on January 1 of 2014?
    Mr. Cohen. Consumers will be able--it is the same answer.
    Mr. Burgess. Consumers will be able----
    Mr. Cohen. To go online, get a determinant of what they are 
eligible for in terms of the subsidy, find out what the subsidy 
amount is. They will then be able to go and look at the plans 
that are available to them where they live, and they will be 
able to--see the premium net of subsidy, and they will be able 
to choose a plan and get enrolled in a plan beginning October 
1.
    Mr. Burgess. And that will be ready on January 1 of 2014?
    Mr. Cohen. That will be ready on October 1. That is my 
understanding. Yes.
    Mr. Burgess. Not your understanding. I need a yes or no 
answer. You are in charge.
    Mr. Cohen. Well, my answer is based on what I have been 
told by the people who are building the IT System. So it is my 
understanding.
    Mr. Burgess. Will full implementation of the law on January 
1 cause employers to alter or drop coverage for their 
employees? Yes or no?
    Mr. Cohen. I don't know the answer to that question. I know 
that employers make lots of decisions for lots of reasons.
    Mr. Burgess. OK.
    Mr. Cohen. Some having to do with the Affordable Care Act, 
many having nothing to do with the Affordable Care Act.
    Mr. Burgess. I guess that is a no. Will full implementation 
of the law on January 1 result in reduced costs for all 
Americans as routinely promised by their President?
    Mr. Cohen. Without accepting your characterization of what 
the President said, I think what we are seeing that competition 
in the marketplace is causing competitive rates to be available 
to many consumers.
    Mr. Burgess. After full implementation of the law on 
January 1, will all Americans still be able to keep their 
current coverage if they like it as promised by the President?
    Mr. Cohen. Again, without accepting your characterization 
of what the President said, grandfather plans are allowed to 
continue to exist without change under the Affordable Care Act. 
It is up to private insurance companies what products they 
offer in the market.
    Mr. Burgess. Thank you, Mr. Chairman. I hope we have time 
for additional questions, but I will yield back at this point.
    Mr. Murphy. The gentleman yields back.
    Mr. Dingell, you are now recognized for 5 minutes.
    Mr. Dingell. I commend you for these hearings. It is 
important that we have proper, friendly, sympathetic, and 
intelligent oversight to get this program off its feet and 
going in the direction that we want it to go. This subcommittee 
has a long and successful record of conducting such oversight, 
and it has informed the full committee of the Congress of 
critical facts. Used properly, strong congressional oversight 
will lead to much good for the American people.
    I am fearful that this current investigation into the 
Navigator Program might be turning into something less 
desirable, and I hope that we will work together to avoid it. 
One of Michigan's Navigators is a group called Access, a 
community-based social services organization I have worked with 
for more than 40 years. There is nobody that knows our 
communities better than them, and this is exactly the type of 
group that we should be empowering to help people sign up for 
health coverage. They are an institution which believe it or 
not serves all parts of the society, all racial groups, all 
religious groups, and does so without discrimination 
whatsoever.
    My questions are going to focus on strong protections that 
exist in the Navigator Program and the status of ACA 
implementation. My questions will elicit yes or no answers.
    I am assuming, Mr. Cohen, that all of your Navigators meet 
all of the standards of any Federal Government contractor. Is 
that right?
    Mr. Cohen. It is a grant program. Yes.
    Mr. Dingell. In regards to discipline, integrity, and 
proper behavior. Is that right?
    Mr. Cohen. Yes.
    Mr. Dingell. All right, and I hope as you need you will 
submit additional answers and responses to the questions for 
the record.
    Are there grants CMS recently awarded to Navigators 
required by the Affordable Care Act? Yes or no?
    Mr. Cohen. Yes.
    Mr. Dingell. Is the training Navigators must go through 
comparable to the training of agents and brokers who currently 
sell health insurance? Yes or no?
    Mr. Cohen. Yes.
    Mr. Dingell. Does the Navigator training include 
information as to how to protect the privacy and security of 
consumers? Yes or no?
    Mr. Cohen. Yes.
    Mr. Dingell. Are Navigators subject to the same kind of 
careful screening as other entities seeking to do business with 
the Federal Government? Yes or no?
    Mr. Cohen. Yes.
    Mr. Dingell. Will the Navigator grantees be overseen in the 
same way as other CMS grantees are overseen and held to the 
terms of their grants?
    Mr. Cohen. Yes.
    Mr. Dingell. Now I would like to move to talking more about 
the opening of the new marketplaces which are less than 2 weeks 
away.
    In 2012, were insurers much less likely than in previous 
years to request rate increases of 10 percent or more? Yes or 
no?
    Mr. Cohen. Yes.
    Mr. Dingell. Would you submit for the record why that is 
so?
    Mr. Cohen. Yes.
    Mr. Dingell. Do you believe that the rate review provision 
in the Affordable Care Act is a factor which led to this 
behavioral change on the part of insurers? Yes or no?
    Mr. Cohen. Yes.
    Mr. Dingell. Do you believe that the marketplaces are 
working as intended by making insurers compete over price on 
the business of consumers? Yes or no?
    Mr. Cohen. Yes.
    Mr. Dingell. Is it your expectation that the consumers will 
have more and better information because of the structure of 
the marketplaces?
    Mr. Cohen. Yes.
    Mr. Dingell. Would you submit some additional thoughts on 
that, please.
    Now, in the 16 states for which we have data, our 
preliminary rates for health insurance in the marketplace, 19 
percent less expensive than predicted.
    Mr. Cohen. Yes.
    Mr. Dingell. Would you submit additional comments on that 
point, please.
    Have some insurers submitted bids to participate in the 
marketplace only to revise these bids and reduce their prices 
when other insurers' rates came in lower? Yes or no?
    Mr. Cohen. Yes.
    Mr. Dingell. Would you submit additional information on 
that question, please.
    Will nearly half of consumers likely be able to pay $100 or 
less per person for coverage in 2014? Yes or no?
    Mr. Cohen. Yes.
    Mr. Dingell. Would you submit additional information for 
the record on that point, please.
    Now, is it correct that eight and ten marketplace consumers 
are expected to qualify for subsidies to make health coverage 
more affordable? Yes or no?
    Mr. Cohen. Yes.
    Mr. Dingell. Would you submit additional comments on that, 
please?
    Now, we are just a few days away from seeing the full 
implementation of the Affordable Care Act. I know that there 
may be some bumps in the road, but we are headed for the right 
direction. American people are suggesting us to set politics 
aside and work together for the common good. I am hopeful that 
we will take this as an opportunity to work together in a 
bipartisan manner. Our constituents expect nothing less than 
that.
    One thing happened the other day. A spokesman for our good 
friend, former member of this committee, Tom Coburn, now in the 
Senate, said a government shutdown would be committing ritual 
suicide on the order of bad strategy, said his communications 
director in the ``National Journal Daily.'' The idea that we 
can fully defund ObamaCare through the continuing revelation is 
a Washington gimmick to advance political funding goals.
    I yield back the balance of my time.
    Mr. Murphy. The gentleman's time has expired.
    I now recognize Mr. Olson for 5 minutes.
    Mr. Olson. Thank you, Mr. Chairman, and welcome, again, Mr. 
Cohen, for returning to answer our questions. I know it is a 
busy time for you, so I appreciate your time this morning.
    Since the last time you appeared before this committee, I 
have been home talking to the people of Texas 22 about the 
pending ObamaCare enrollment on October 1. Most hadn't heard of 
open enrollment. They haven't heard if their employer will 
continue to provide healthcare under ObamaCare, and now the 
ones who are working 40 hours per week and working for minimum 
wage are hearing that they are going to get their wages cut by 
25 percent, down to 30 hours or less per week.
    But they have heard about Navigators, and they are scared. 
They have a lot of questions as, you can imagine, they want me 
to ask you, so please give me a direct response and not a 
filibuster.
    The first question, there are now 104 entities that are 
Navigators. Is that correct?
    Mr. Cohen. I know it is more than 100. That sounds right.
    Mr. Olson. OK. We will assume that is correct. How many of 
these Navigators have hired people for the Navigator position 
or currently have people in place to be Navigators that fulfill 
these requirements? Any idea?
    Mr. Cohen. Oh, I don't have the answer to that, but I am 
sure we can work with you to get you that information.
    Mr. Olson. So we are 7 business days away from this. We 
have no idea how many Navigators, how many people have been 
hired as Navigators.
    Mr. Cohen. No. I didn't say that. I said I don't know, but 
we have project officers that are in contact with the 
Navigators on a regular basis and at least weekly, and I am 
sure we have that information and would be happy to work with 
you to get it to you.
    Mr. Olson. About the ones that have been hired, now, you 
don't know that, but do you know how many have completed or 
begun their training yet?
    Mr. Cohen. I do not know.
    Mr. Olson. OK. About their training, can you provide me 
some details about their training? I understand it is a 20-hour 
syllabus, and there is some exam at the end. Is that a multiple 
choice? How does that exam work? Some details about the 
qualifications process.
    Mr. Cohen. It is an open book. It is a 20-hour exam. It is 
an online course. You go through the course. As you go through 
the course, you're asked questions about the material, and you 
have to score an 80 percent on each section in order to pass 
and get certified.
    Mr. Olson. Are applicants required to undergo background 
checks like I am sure you did to have your job, like I did in 
the Navy? Did Navigators have to have a background check?
    Mr. Cohen. So the organizations obviously went through a 
very rigorous scrutiny process in order to receive the grants. 
The Federal Government has not required that background checks 
for the individuals be given, but some states have adopted that 
as a requirement as they are permitted to do.
    Mr. Olson. And so the people on the street aren't required 
to get background checks? You are telling me that the entities 
of employment are, but the people actually knocking on doors, 
not knocking on doors but getting information out, are not 
required to have a background check?
    Mr. Cohen. Like the CHIP Program, there is no federal 
requirement for there to be background checks. People have been 
helping people with Medicare for many, many years, no 
background check requirement by the Federal Government. States, 
like the CHIP Program, are able to impose that requirement if 
they think that is something that is important in their 
communities.
    Mr. Olson. How about a drug test? You can't get a job out 
in the Texas oil fields without a drug test. How about a 
Navigator?
    Mr. Cohen. There is no requirement that individual 
Navigators be subject to a drug test. No.
    Mr. Olson. How about guidelines? How much do Navigators get 
paid, the people out in the streets? Any idea what the range of 
their salary is?
    Mr. Cohen. It is determined by each of the grantees. It is 
part of the budget that they presented, and the budget 
proposals were subject to review by the Office of Grants 
Management at CMS like every grantee to make sure that the 
amounts being paid were reasonable.
    Mr. Olson. Does the program have some quality assurance 
checks, like a so-called secret shopper, somebody that checks 
up and sees what they are being told is accurate? Do you have 
some sort of program to make sure that people give accurate 
information? Are you checking up on that?
    Mr. Cohen. We will be doing ongoing monitoring and 
oversight of the Navigator Program, and it could include secret 
shopper.
    Mr. Olson. And one final question. I was a panelist for the 
Chamber of Commerce Board back home talking about the rollout 
of ObamaCare, and we had a couple State Representatives from 
Texas on that panel with me. One said that he has heard that 
the Navigators who are hitting the streets will have voter 
registration cards. Have you heard that? Is that true or false?
    Mr. Cohen. The Federal Voter Registration Law requires that 
any, that a public program like Medicaid, any application, 
people be given, offered information about voter registration. 
That is a federal law requirement, and because the application 
covers both Medicaid and CHIP and subsidies under the 
exchanges, we are required to provide information about voter 
registration to people.
    Mr. Olson. Thank you. I am out of my time, and I yield 
back.
    Mr. Murphy. Thank you. I now recognize Ms. Castor for 5 
minutes.
    Ms. Castor. Well, thank you, Mr. Chairman, and thank you 
for calling the hearing.
    Mr. Cohen, we are not even in the month of Halloween and 
yet the Republicans, one of their favorite scare tactics that 
we hear regarding the ACA is that the Affordable Care Act is 
going to lead to higher health insurance premiums and rate 
shock, but while my Republican friends have made every effort 
to convince Americans that everyone's health insurance premiums 
are going up on January 1, now we have the data that 
demonstrates that that is untrue. These assertions that health 
insurance rates are going up simply is not borne out by a 
number of analyses that have been conducted.
    So let's walk through the information on the Affordable 
Care Act health insurance premiums, starting at the beginning. 
Mr. Cohen, when people shop for coverage through the 
marketplaces, they will be able to compare plans and then 
select a plan, sign up for the either private insurance or if 
they have a state that expanded Medicaid, Medicaid. Is that 
correct?
    Mr. Cohen. That is right.
    Ms. Castor. And if they have a household income below 400 
percent of the poverty level, so if you are an individual at 
about $46,000 or a family of four at about $94,000 on a sliding 
scale, you will be eligible for tax credits. Is that correct?
    Mr. Cohen. That is right.
    Ms. Castor. Or Medicaid possibly.
    Mr. Cohen. Correct.
    Ms. Castor. Well, this week HHS released an analysis and 
census data on the 41 million uninsured Americans. Twenty-five 
percent of Floridians are uninsured. So you can see why these 
new marketplaces will be a Godsend for them, but 41 million 
uninsured Americans who will be eligible to enroll in coverage 
through the marketplaces. Can you tell us in broad terms what 
the analysis said?
    Mr. Cohen. The analysis said that about eight in ten will 
be eligible for tax credits through the marketplaces.
    Ms. Castor. And did it say 23 million will be able to 
purchase coverage for less than $100 a month?
    Mr. Cohen. That is correct, including the subsidy. Yes.
    Ms. Castor. I mean, that is pretty remarkable. Did you have 
an idea that the coverage would be that affordable?
    Mr. Cohen. You know, I think there were lots of predictions 
about what rates would be. I think we have been just enormously 
pleased that the marketplace and competition is working, and we 
are seeing the availability of low-cost, affordable plans in 
many places throughout the country.
    Ms. Castor. And these findings have been echoed in recent 
studies by the non-partisan RAND Corporation and the non-
partisan Kaiser Family Foundation, two of the most respected, 
non-partisan health policy analysts. Are you familiar with 
these studies from RAND and Kaiser?
    Mr. Cohen. I am generally. Yes.
    Ms. Castor. Tell us in broad terms what those studies 
found?
    Mr. Cohen. Well, Kaiser Family Foundation estimated that in 
the 18 rating areas, so that is specific geographic locations 
that they looked at, 15 would have premiums below the latest 
projections that the CBO had made of what rates would be, and 
they talked about a premium for a 40-year-old in the second 
lowest called Silver Plan being $320 a month nationally. That 
is before the application of subsidies.
    Ms. Castor. And, Mr. Cohen, are the plans available on the 
Affordable Care Act in the marketplaces, are they a good deal 
for the quality of coverage that is being offered?
    Mr. Cohen. Well, that is one of the most important things 
because these plans all have to have the essential health 
benefits that are required by the Affordable Care Act, and they 
cannot have annual limits or lifetime limits. So they are going 
to be there to provide coverage when people need it.
    Ms. Castor. And at the beginning of the hearing I shared 
with you and my colleagues the enthusiasm at home, especially 
among many of our neighbors who have chronic conditions that 
have been barred from insurance coverage. If you have had 
diabetes or I talked with a gentleman with multiple sclerosis, 
HIV, AIDS. I mean, we all have neighbors or family members that 
have been barred from coverage because of these pre-existing 
conditions, and this is really going to, like I said, it is 
giving them hope. They can finally now obtain coverage, and so 
will this high-quality coverage that is available for the same 
price, will it be available for the same price even for many of 
our neighbors that have those pre-existing conditions?
    Mr. Cohen. That is exactly right. They cannot be charged 
more because of the pre-existing condition.
    Ms. Castor. So every Republican announces premiums under 
the ACA. If you noticed, they ignore these key facts that 
coverage has gotten better, that bar against discrimination for 
our neighbors who have these pre-existing conditions now will 
go away for 129 million Americans, and they ignore the tax 
credits. In my State of Florida they said, let's conduct a 
study, and we will show you that it is not affordable, but then 
they didn't build into the study the tax credits that are 
available for families and neighbors and small businesses, too. 
And then the one that really takes the cake, do you know in my 
home state, I love my state, but we need help when it comes to 
healthcare coverage, but one of the things they did that 
probably wins the award for obstruction and sabotage is they 
actually took away the Insurance Commissioner's ability to 
regulate rates and negotiate rates.
    Is there any other state that has done that to your 
knowledge?
    Mr. Cohen. I don't believe so, and I was a State Regulator 
as General Counsel to California Insurance Department, and I 
know Kevin McCarty very well, and it is an excellent insurance 
department, and it is unfortunate that their authority was 
taken away.
    Ms. Castor. Thank you very much.
    Mr. Murphy. The gentlelady's time has expired.
    Now got Mr. Johnson of Ohio for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    Mr. Cohen, first of all, good morning. Thank you for being 
here today.
    First question for you, whose department is responsible for 
overseeing and administering these grants to the Navigators?
    Mr. Cohen. It is a combination of my office and our Office 
of Grants Management, both within CMS.
    Mr. Johnson. OK, but you are responsible for overseeing 
that process. Correct? You are the director.
    Mr. Cohen. When you say process----
    Mr. Johnson. Yes. The grant process.
    Mr. Cohen. The process of selecting the grantees or the 
process of overseeing the grantees and their work?
    Mr. Johnson. Process of overseeing and selecting.
    Mr. Cohen. Well, so I personally had no role in the 
selection process. We do that through an independent review 
panel.
    Mr. Johnson. OK, but you oversee it. Correct?
    Mr. Cohen. Well, I had no role on the selection process.
    Mr. Johnson. No. Who oversees the grant process? What is 
your role in the grant process?
    Mr. Cohen. So in the grant selection process I had no role.
    Mr. Johnson. What is your role in the grant process? I 
didn't say the grant selection process. What is your role in 
the grant process?
    Mr. Cohen. My office is responsible for overseeing the 
grantees' performance now that they have received the grant.
    Mr. Johnson. OK. Did you review the criteria for the grant 
applications to be reviewed?
    Mr. Cohen. I did.
    Mr. Johnson. You did? OK. Well, because earlier when you 
were asked, you said I don't know. Repeatedly you said I don't 
know, didn't have anything to do with that.
    Mr. Cohen. No. That is not what I said. I didn't review the 
applications. I certainly was part of putting together what the 
program would be because that is part of my job but----
    Mr. Johnson. OK. The criteria for reviewing the grants--you 
stated in your answer to Dr. Burgess that when he asked you if 
we could get the money back for those that are doing processes 
like door to door that are going to be prohibited, you said 
that you were confident that they would find other activities.
    You know, I find this rather an odd way of going about 
spending the taxpayer dollars because, I mean, if you don't 
know where you are going, obviously any road will get you 
there. This is consistent with the theme of let's pass the 
healthcare law so we can see what is in it. Now you are trying 
to tell the American people that we ought to award millions of 
dollars in grants and then find out how they are going to spend 
it. I would submit to you that that is exactly the kind of 
irresponsible governance and irresponsible administration that 
the American people have become so frustrated with. And leaders 
who purport themselves to be directors, head of agencies that 
fane, I don't know, and try to shrug our shoulders and say, I 
didn't have anything to do with that, it is disingenuous, Mr. 
Cohen.
    Mr. Cohen. Well, I respectfully----
    Mr. Johnson. First question, when you were evaluating----
    Mr. Cohen [continuing]. Disagree with your characterization 
of what I said.
    Mr. Johnson. Reclaiming my time, Mr. Cohen. Let me ask you 
a question. When you were evaluating the Navigator Grant 
Program, were there standards on the appropriate amount of 
grant spending per enrollee or per individual contacted about 
enrollment? You told me you reviewed the criteria, so were 
there any standards about that?
    Mr. Cohen. I reviewed the criteria for the program. I was--
--
    Mr. Johnson. Then you should answer yes or no.
    Mr. Cohen [continuing]. Not involved in the budget 
discussions with each grantee over what their costs would be.
    Mr. Johnson. Was there in the grant process, you told me 
you reviewed the criteria, you just got done saying that, were 
there any standards on the appropriate amount of grant spending 
per enrollee? That is a very simply question.
    Mr. Cohen. And I don't recall.
    Mr. Johnson. You don't recall. You don't know.
    Mr. Cohen. I don't recall.
    Mr. Johnson. It goes back to my first statement. Were there 
any standards or minimums on the number of health fairs 
attended or individuals contacted via advertisements?
    Mr. Cohen. I doubt that the funding opportunity 
announcement was----
    Mr. Johnson. Tell me what you know about the criteria. You 
reviewed the criteria. Tell me what you know about the 
criteria.
    Mr. Cohen. We put out a funding opportunity announcement 
that describes the program.
    Mr. Johnson. No. I don't want you to tell me what you did. 
I want you to tell me what the criteria was. What is the 
criteria for a grant?
    Mr. Cohen. I don't know how to answer that.
    Mr. Johnson. You don't know.
    Mr. Cohen. I don't know how to answer your question.
    Mr. Johnson. No, you don't know.
    Mr. Cohen. No.
    Mr. Johnson. And that is appalling to me. Turn to Exhibit 
1, please. I think it is reprehensible that you would come 
before the American people as a director of a department and 
you don't know. You sit there and tell me that you reviewed the 
grant process, you reviewed the criteria, and yet you don't 
know. You can't give the first sentence about that criteria.
    Turn to Exhibit 1, please.
    Mr. Cohen. I have it.
    Mr. Johnson. OK. This is a Navigators grant application 
provided to the committee by the Administration. It shows a 
Navigator applicant who expects to facilitate enrollment of 312 
people into qualified health plans. You awarded this 
organization approximately $80,000 of taxpayer money for only 
300 people. Now, I acknowledge you said you didn't have 
anything to do with the grant award, but you set up the 
criteria.
    Do you believe that this is an efficient use of taxpayer 
dollars? I can do the quick math.
    Mr. Murphy. The gentleman's----
    Mr. Johnson. It is $266 per person.
    Mr. Murphy [continuing]. Time has expired. We may go to a 
second round, so if you have more questions, I will let you 
come back to it.
    Mr. Johnson. Am I----
    Mr. Murphy. We will let you answer.
    Mr. Johnson. Oh, I am not even checking the clock. Sorry, 
Mr. Chairman. I yield back.
    Mr. Murphy. We can go back.
    Mr. Cohen. As I said I literally have not seen this before 
today. I am happy to go back and look at it and answer your 
questions. I just can't do that today.
    Mr. Johnson. I am not surprised you haven't seen that 
information. I am not surprised at all.
    Mr. Cohen. Because I was not part of the grant application 
and award process for reasons that I am sure you will 
understand.
    Mr. Murphy. We will follow up with that.
    Mr. Waxman is now recognized for 5 minutes.
    Mr. Waxman. Mr. Cohen, do you approve the budgets of the 
Navigators?
    Mr. Cohen. I did not.
    Mr. Waxman. No. Do you?
    Mr. Cohen. No, I don't personally.
    Mr. Waxman. You don't. Your agency doesn't?
    Mr. Cohen. Yes.
    Mr. Waxman. Your agency does.
    Mr. Cohen. Yes.
    Mr. Waxman. OK. So what you did is help establish the 
criteria for awarding these grants to Navigators who will help 
people know what insurance options are available to them and 
help them sort through a new law that they have heard a lot of 
negative things about from partisan Republicans who want to 
demonize the idea that people will be able to get insurance. I 
think that the questions you just had were off the mark and not 
appropriate for Congress. I don't think we ought to beat up on 
people because they don't like the law.
    So the criteria is to select people who can do the job as 
Navigators. Right?
    Mr. Cohen. Yes.
    Mr. Waxman. And you have something to do with that?
    Mr. Cohen. Correct.
    Mr. Waxman. OK, and then the grants that are made to 
different applicants to be the Navigators, who decides that?
    Mr. Cohen. We have a process where our Office of Grants 
Management, this is the same as every grant, CMS awards a lot 
of grants.
    Mr. Waxman. Yes.
    Mr. Cohen. Every grant goes through a screening process 
where they review the application, they review the management 
of the applicant, they review the budget, they score them. That 
then goes to an independent review committee that makes the 
selections based on the criteria and the purposes of the 
program.
    Mr. Waxman. So no one has basis for criticizing you for 
what an independent grant committee reviews and decides. Isn't 
that correct?
    Mr. Cohen. I agree with you.
    Mr. Waxman. OK. Look, I don't even know what this hearing 
is all about. We have had so many hearings by the Republicans 
to beat up on the Affordable Care Act. They don't like it. I 
got the idea. When they wanted to repeal it, they could have 
gotten the message out by asking us to vote for it five times. 
Instead they voted 41 times. It is because they have nothing 
else to do but attack this Affordable Care Act. And why do they 
want to do that? Because they want to confuse people. They want 
to scare people. That is what this hearing is all about, and in 
fact, the people who are doing the work of Navigators they are 
called, are now being intimidated by the Republicans, who are 
getting a long list of questions, asking them did they do 
something wrong, I gather. That seems to me so unfair. You have 
got a clinic, you have got people that work in a homeless 
shelter, you have got people who work with an ethnic community, 
people who are there in the community and know the community 
well, and they have been selected and had to go through tests 
and classes to be good Navigators, and they are going to do 
their job. And now they get letters from members of Congress 
asking them to fill out answers to a long list of questions. Do 
you know what kind of questions they have been asked?
    Mr. Cohen. They have been asked very detailed questions 
about both the application process and about what their plans 
are for what they are going to do before they have even started 
work, before they have even hired their staff.
    Mr. Waxman. This is nothing but intimidation by this 
committee. Congress has a lot of power. When the Chairman or a 
member gets the chance to ask questions, that is a lot of 
power, but what we need to do is restrain ourselves from 
abusing that power, and I haven't seen much restraint around 
here, and I understand one Navigator has already dropped out of 
the program because they just said we don't have enough money 
to do the work of answering questions from Congress as well as 
reaching out to the community. Isn't that right?
    Mr. Cohen. Yes. That is true, and I have heard from others 
that are very concerned. They don't know what to do with, in 
response to this, to these inquiries that they have gotten.
    Mr. Waxman. I just think this is such an abuse of power to 
intimidate Navigators who are going to explain the new law to 
people. In California we are running the program, and we 
license people who sell private insurance, and the state has 
taken over the responsibility of approving the Navigators, 
hasn't it?
    Mr. Cohen. Yes.
    Mr. Waxman. So they have a job to do, they have been 
checked out to be sure they are people who are capable of doing 
the job. We don't call in private insurance salesmen to ask 
them a whole bunch of questions, but when they are trying to 
just get the community to understand something new, this 
committee abuses its power and wants to ask all sorts of 
questions, and at a time when they are trying to run this 
program with a couple of weeks left before the opening of the 
exchanges.
    Mr. Cohen. And I would just add if I might that any state 
that wanted to run their Navigator Program had the ability to 
do that either by operating its own marketplace or by being a 
consumer assistance partner with us. They could have taken over 
the whole thing.
    Mr. Waxman. Well, my state is doing a good job. We are 
going to have a great success in California. I think we are 
going to have success around the country unless Republicans 
intimidate people, whether it is at the state level or the 
federal level, to scare them about the idea that they can get 
insurance that has been denied them in the past, and the 
Republicans said nothing about it but denied them in the past 
because they had pre-existing medical conditions----
    Mr. Murphy. The gentleman's time has expired.
    Mr. Waxman [continuing]. Or they couldn't afford the 
insurance policy. And so I don't know what this hearing is all 
about except to intimidate people, and I resent it, Mr. 
Chairman, and I resent the kind of questions that our witness 
has just been subjected to by my colleague.
    Yield back my time.
    Mr. Murphy. Yield for question and query. You had made a 
reference to California is taking over these things, and they 
also have laws for insurance agents who sell these policies.
    Mr. Waxman. Yes.
    Mr. Murphy. Are you saying that it would be under the same 
guidance or rules or regulations as an insurance agent? Could 
you clarify that for the record?
    Mr. Waxman. Well, Mr. Cohen could probably do it better, 
but as I understand it, California is going by the standards 
set by the Federal Government. Isn't that right? Why don't you 
answer?
    Mr. Cohen. California because it is operating its own 
marketplace has its own Navigator Program, and it is not 
requiring Navigators to be agents and brokers. We have issued 
regulations saying that states may not do that, but it has put 
in additional requirements above and beyond the federal 
requirements as states may do.
    Mr. Murphy. Just for clarification I am just confused 
because I know many states have rules about continuing 
education, fingerprinting, background checks, licensing tests 
for agents. So if they are under the California Program they 
are not going to be part of those same sort of rules? There is 
a separate level?
    Mr. Cohen. I am not 100 percent familiar with what 
California is doing, but I believe that California is requiring 
backgrounds checks and fingerprints.
    Mr. Murphy. Could you just let us know?
    Mr. Cohen. Sure.
    Mr. Murphy. Thank you very much.
    Now recognize Mr. Scalise for five questions--5 minutes.
    Mr. Scalise. Hopefully I can get to more than five 
questions, but I will do my best to get through the questions I 
have, and Mr. Chairman, I want to thank you for having this 
committee. I think it is important that we have oversight over 
a program that is involving not only $67 million of taxpayer 
money but a new program where these Navigators, people will be 
going throughout America trying to sign people up for the 
President's Healthcare Law that has missed so many deadlines, 
that has had so many problems. For somebody to kind of 
insinuate that we should not be asking real tough questions, 
American people have tough questions. That is why they sent us 
here. I would hope, Mr. Cohen, you are here to give 
straightforward answers to the questions that people have, and 
anybody who thinks that sunshine and transparency will 
undermine the law, maybe they are right. Maybe the fact the 
more people find out about this law they don't like it. That is 
not our fault. That is the fault of such a bad law that the 
more people find out about it they don't like it.
    Mr. Cohen. I always do my best, Congressman, to answer the 
questions.
    Mr. Scalise. I appreciate that, and do you think any of 
these are unfair questions?
    Mr. Cohen. I think I better not respond to that one.
    Mr. Scalise. Not only are you under oath, but the President 
that you work for, the President said on a campaign promise 
that he would be the most transparent President ever, and all 
of the sudden we start asking basic questions, and people are 
feigning that we shouldn't be asking tough questions, because, 
boy, that poor President, it might make his law look bad if 
people find out just what is in it.
    Mr. Cohen. Congressman, I have no problem with answering 
questions of me. This is the seventh time that I have testified 
before a Congressional committee or subcommittee since 
December. I have always done my best to answer the questions. I 
have always done my best to provide additional information when 
I wasn't able to answer the question.
    Mr. Scalise. OK. I just want to make sure----
    Mr. Cohen. The concern that I have--so any questions you 
have for me or for us as a department----
    Mr. Scalise. I want to ask you about background.
    Mr. Cohen [continuing]. The concern that I have is for the 
scrutiny that these Navigators groups were put under even 
before they ever----
    Mr. Scalise. Let me ask you. If a Navigator----
    Mr. Cohen [continuing]. Started their work.
    Mr. Scalise [continuing]. And I want to ask you to get the 
committee the name of any Navigators who dropped out of the 
program because of scrutiny, I would ask you can you get that 
information to this committee?
    Mr. Cohen. Yes.
    Mr. Scalise. Because if any Navigator dropped out of the 
program because they didn't want to be held accountable for the 
taxpayer money they are receiving, they don't belong in the 
program. They ought to get out of the program.
    Mr. Cohen. That wasn't the reason.
    Mr. Scalise. Well, then let's see the names of those 
people, and we will follow up.
    Mr. Cohen. The reason that it was----
    Mr. Scalise. We are asking real questions. They ought to be 
providing answers just like you should.
    Mr. Cohen. That wasn't the reason.
    Mr. Scalise. They are getting taxpayer money. I want to ask 
you about criminal background checks. This is a big concern of 
a lot of people I know in my district and when I talk to 
colleagues, others. Why is it that you did not choose to 
include background checks on people that are going to be going 
around asking people for very secured, personal information 
about their health?
    Mr. Cohen. First of all, they are not going to be asking 
people information about their health.
    Mr. Scalise. These people will be having----
    Mr. Cohen. That is wrong.
    Mr. Scalise [continuing]. Conversations with Navigators 
about healthcare.
    Mr. Cohen. They are not going to be asking----
    Mr. Scalise. They are going to be trying to give them 
advice, aren't they, about what kind of healthcare options they 
have in these exchanges? Is that what----
    Mr. Cohen. They are not going to be asking people for 
information about their health. That is not part of the 
application.
    Mr. Scalise. They will be asking them healthcare questions.
    Mr. Cohen. They are not going to be asking them for 
information about their health. It is not part of the 
application.
    Mr. Scalise. So let me ask you this. If somebody just got 
released from prison for a conviction on identity theft, would 
that person be eligible to be a Navigator? Yes or no? You are 
under oath.
    Mr. Cohen. I am confident that the organizations that we 
have given grants to----
    Mr. Scalise. Can they be eligible? Are they eligible? It is 
a yes or no question. I am sure what you hope, if you hope that 
they are not eligible, why didn't you make that a rule? Am I 
incorrect in saying that a person who was just released from 
prison on identity theft can be a Navigator under your rules? 
Is that an inaccurate statement?
    Mr. Cohen. We have had----
    Mr. Scalise. Because I am making that statement right now. 
Your rules allow someone who committed identity theft to be 
eligible to be a Navigator. If I am saying anything incorrect, 
you just correct me right now.
    Mr. Cohen. We have had experience for many, many years with 
the CHIP Program. There was no federal requirement for 
background checks in the CHIP Program.
    Mr. Scalise. OK. So my statement is correct.
    Mr. Cohen. I am not aware----
    Mr. Scalise. If you correct me, then I will stop saying it, 
but I just made a statement. If I said anything inaccurate, 
please correct me, but if you don't, I will keep making that 
statement.
    Mr. Cohen. There is no federal requirement for background 
checks or criminal record checks----
    Mr. Scalise. OK. Stop right there.
    Mr. Cohen [continuing]. In the Navigator Program. Some 
states----
    Mr. Scalise. Was there a concern----
    Mr. Cohen. Excuse me.
    Mr. Scalise. No. That is my time. He didn't answer my 
question.
    Mr. Waxman. Point of order. The gentleman ought to be given 
the courtesy to answer the question.
    Mr. Scalise. Well, he will be given the courtesy. I will 
ask one follow-up question, and then I will let you have the 
time.
    Mr. Cohen. Congressman, I ask for your support here in 
being able to answer these questions.
    Mr. Murphy. One more question.
    Mr. Scalise. The question I have is were you concerned that 
invoking criminal background checks might limit the number of 
people that would apply to be Navigators?
    Mr. Murphy. Mr. Cohen, you may answer the question.
    Mr. Cohen. We want to get as many--we had a number of 
factors. It was not clear to us that we have the authority to 
require the criminal background checks, and we wanted to make, 
we left it up to the states to determine whether that was a 
requirement that they wanted to impose.
    Mr. Scalise. So that was a yes or no question I asked. I 
would just ask if you could give a yes or no answer to a yes or 
no question. Were you concerned that invoking criminal 
background checks might limit the number of people that would 
apply to be Navigators?
    Mr. Cohen. The cost and the difficulty of doing criminal 
background checks, yes, we were concerned about that.
    Mr. Murphy. The gentleman's time has expired.
    Mr. Cohen, would you be able to at some point in the near 
future provide information on, you said some states have it, 
some states don't, just so we can have that.
    Mr. Cohen. Sure. I would be happy to.
    Mr. Murphy. And those issues are obviously a concern I 
think from members on both sides of the aisle to make sure that 
the people coming through are trustworthy.
    Now recognize Mr. Tonko for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair, and Mr. Cohen, thank you 
for returning to the committee and for your diligent work thus 
far in trying to implement probably the biggest reform to our 
Nation's healthcare system in our history. This is no small 
task, and so we all appreciate, I would hope we all appreciate 
the commitment and grace you have shown in taking on this work, 
and I have some questions, and I will allow you to answer them 
and not talk over you.
    We have understandably heard a lot already today about the 
exchanges which are the most visible piece of the ACA. So I 
wanted to take the time to ask you about some of the other 
insurance reforms under ACA that your center is responsible 
for.
    Under the ACA the center is charged with providing support 
to consumers when insurance companies deny payment for a 
service or treatment which have coverage guaranteed under ACA 
such as preventative services. One such example of a guaranteed 
benefit under ACA is BRCA testing and genetic counseling for 
women meeting certain risk criteria for heredity breast and 
ovarian cancer.
    However, I have heard reports of several women in New York 
who have been denied BRCA testing despite meeting the criteria 
for testing and receiving medical advice to have the testing 
done. My understanding is that this should not happen and that 
your center is charged with ensuring that it doesn't.
    What resources and assistance does the center offer for 
consumers who need to appeal health insurance claims decisions, 
and where could consumers gain easy access to these resources?
    Mr. Cohen. So there is a requirement under the Affordable 
Care Act for an external appeal process after someone goes 
through the process through their insurance carrier, and New 
York is probably running that appeals process. I would have to 
go back and look. Some states are doing it. In some cases it is 
the Federal Government that is doing it if the state doesn't 
have a process that meets the required standard.
    In addition, we work very closely with the state 
departments and insurance when we learn of something that is a 
systemic problem, so if it is not just, you know, one 
particular individual or two, you know, but it looks as though 
a particular carrier or even more broadly all the carriers in a 
market or whatever are not abiding by the provisions of the 
Affordable Care Act, we work very closely with state insurance 
departments to make sure that they do.
    Mr. Tonko. Thank you, and perhaps if you could look more 
closely at that specific situation, I would appreciate it.
    Mr. Cohen. We would be happy to.
    Mr. Tonko. As you know, the implementation of the 
Affordable Care Act will extend federal parity protections from 
Mental Health Parity and Addiction Equity Act to more than 62 
million Americans. However, given the delay in issuing final 
parity regulations, it is doubtful the American people will 
enjoy the full protections of mental health parity consistent 
with the spirit of that legislation as the ACA goes into full 
effect in 2014.
    With another terrible tragedy unfolding again this week 
here in DC, the need for a robust national commitment to mental 
health has been highlighted yet again. We have heard from 
numerous Administration officials that a final mental health 
parity regulation would be finished by the end of the year, a 
date which is rapidly approaching.
    Can you provide us with any more details on when to expect 
any such final parity rule?
    Mr. Cohen. So we have committed that there will be a rule 
out by the end of the year. I am confident there will be. I 
know work is ongoing. I have been to meetings where we have 
been reviewing the provisions of the final rule. It is moving 
through our process. I can't give you an exact date of when it 
will be coming out, but it will be coming out by the end of the 
year.
    Mr. Tonko. OK, and can you describe in detail the current 
investigation and enforcement process that your office goes 
through when it receives a complaint about parity violations?
    Mr. Cohen. Sure. So as with many federal law provisions, 
HIPAA, and mental health parity, again, the states are the 
principle primary enforcer. So what we typically do when we 
hear about problems, and we do have a hotline where people can 
call and, you know, tell us about problems they are having with 
their insurance company, we generally will reach out first to 
the state department. There have been some instances since I 
have been at CCIIO where the state has told us that they are 
not able to deal with the problem, and we have dealt directly 
with the insurance companies to make sure that they are 
complying.
    Mr. Tonko. Yes.
    Mr. Cohen. We have also done some outreach and education 
because I know that the requirements of the Mental Health 
Parity Law are not as well-known and understood, and so we have 
been doing some outreach and education both to the issuer 
community and to the state insurance departments to make sure 
they understand the provisions of the law.
    Mr. Tonko. When these investigations, Mr. Cohen, of parity 
violations are conducted, are the results of these 
investigations made public?
    Mr. Cohen. It depends. What we try to do normally is get 
compliance, and if we are able to get compliance, then--and 
there is no administrative action that is begun, then typically 
that would not be public.
    If we go to the point of actually beginning administrative 
action and the possible imposition of civil monetary penalties, 
that would be public.
    Mr. Tonko. I know my 5 minutes are up, and with that I----
    Mr. Murphy. I recognize Mr. Harper for 5 minutes. Thank 
you.
    Mr. Harper. Thank you, Mr. Chairman. Mr. Cohen, good to see 
you again, and I have some questions. If I could get you to 
look in the notebook and turn to Exhibit 4 for just a moment, 
please. Exhibit 4. And if you will look at that, you will see 
that number 14 says, incentives for quality connections and the 
second sentence states they, meaning Navigators, have the 
opportunity to earn $200 additional per quarter if they meet a 
standard of 300 enrollments or screenings during the quarter. 
Do you see that?
    Mr. Cohen. I do.
    Mr. Harper. Do you believe it is appropriate to pay 
Navigators for the number of individuals enrolled?
    Mr. Cohen. In the federal program we are not permitting 
Navigators to be paid by the number of enrollments. I 
understand this is an application, and it may be what they 
thought that they were going to do, but we are not permitting 
that.
    Mr. Harper. So what are they getting? Just a straight 
salary or a straight--so they get paid the same, you are 
saying. This is not true?
    Mr. Cohen. This is an application.
    Mr. Harper. OK.
    Mr. Cohen. But I am telling you that in the federal program 
Navigators are not being paid by the number of enrollees.
    Mr. Harper. OK, but didn't you approve this application?
    Mr. Cohen. I did not, but there is a budget process that--
--
    Mr. Harper. Somebody approved the application.
    Mr. Cohen. We did. We did. OK. So there is a budget process 
that goes through before a grant is awarded, and I don't know 
the specifics of this particular applicant, but I am confident 
that the budget that was worked out with this applicant did not 
include payment per enrollee.
    Mr. Harper. Can you check that----
    Mr. Cohen. I can.
    Mr. Harper [continuing]. To be 100 percent sure and get 
back with us in writing on that?
    Mr. Cohen. I would be happy to.
    Mr. Harper. So is there another application, another form 
that we should be looking at?
    Mr. Cohen. Well, there is a grant award, there is a 
cooperative agreement between the grantee and CMS. Yes.
    Mr. Harper. All right.
    Mr. Cohen. This is just the application.
    Mr. Harper. Let me at least----
    Mr. Cohen. Part of the application.
    Mr. Harper [continuing]. Let me ask you this. If this were 
true, would you believe that we should be incentivizing 
Navigators to go enroll as many people as possible?
    Mr. Cohen. In the federal program we made the decision not 
to permit compensation based on number of enrollees.
    Mr. Harper. OK. Well, but this is a document that you 
provided to us if I am not mistaken.
    Mr. Cohen. It is an application.
    Mr. Harper. OK. Well, and that is what I am referring to is 
the document. So just so I am clear are you saying then that no 
Navigator is being paid additional money or bonus money by the 
number of people signed up? That is what you are saying?
    Mr. Cohen. In the federal program. Correct.
    Mr. Harper. All right. Well, what about in any other 
program or other entity?
    Mr. Cohen. My understanding is that there may be some 
states that are paying some portion of compensation for 
enrollees.
    Mr. Harper. And you would know which states those are. 
Correct?
    Mr. Cohen. We can get that information.
    Mr. Harper. Would you do that and----
    Mr. Cohen. Sure.
    Mr. Harper [continuing]. What amounts and if they are 
paying all Navigators the bonus based upon numbers, I would 
want to know that.
    All right. Are you going to issue any type of statement or 
standards for Navigators or to the states directing them not to 
do this?
    Mr. Cohen. No. We have left, I mean, the states as 
throughout the Affordable Care Act we have given the states a 
lot of flexibility to design their programs in the way that 
they think is best for their state, and so we are not telling 
states that they can't do it. In the federal program Navigators 
are not being paid per enrollee.
    Mr. Harper. All right. Following up on other questions, my 
understanding of what you are saying is that Navigators are not 
subjected to or a criminal background check is not done. 
Correct?
    Mr. Cohen. There is no federal requirement for a criminal 
background check. Some states are imposing a criminal 
background check requirement on Navigators.
    Mr. Harper. But it is not your requirement, a federal 
requirement to do that.
    Mr. Cohen. Right.
    Mr. Harper. The Navigators are going door to door in some 
situations. Correct?
    Mr. Cohen. Navigators will be told that they should not go 
door to door to solicit people to enroll in coverage.
    Mr. Harper. They are being told not to.
    Mr. Cohen. Not to.
    Mr. Harper. OK. Do you know if they are doing that on any 
state level?
    Mr. Cohen. I don't.
    Mr. Harper. OK. Can you let us know that, too, please----
    Mr. Cohen. I can try to find that out.
    Mr. Harper [continuing]. As one of the things here. If I 
could get you now to turn to Exhibit number 8. Exhibit 8 is a 
work plan from one approved Navigator. If you look through, you 
will see it promises a complete 24,000 robo calls in the first 
quarter, 72,000 robo calls in the second quarter, another 72 in 
the third, and 72,000 more in the fourth quarter.
    Do you see that document?
    Mr. Cohen. Yes.
    Mr. Harper. Do you believe that Navigators should be using 
taxpayer dollars to fund robo calls?
    Mr. Cohen. I am going to have to check to see what our 
instructions are going to be about that. My understanding 
generally is that our expectation is that when it comes to 
enrollment assistance, we are expecting that people are going 
to come to the Navigators rather than the Navigators going to 
them.
    Mr. Harper. Sure, but this is an application that was 
approved. So this was an approved application, was it not?
    Mr. Cohen. This grantee was awarded a grant. It doesn't 
meant that every single thing in the application was, ended up 
in the final end award.
    Mr. Harper. All right, but they awarded a grant, and that 
application did call for robo calls that you saw.
    Yield back.
    Mr. Murphy. Thank you. The gentleman's time has expired.
    I now go to Mr. Green for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. Cohen, let me explain to you the district I represent. 
I have a very urban district in Houston, and it has some of the 
highest in the country of uninsured. Hidalgo County in South 
Texas, the numbers in my district compare to some of the 
poorest counties in the country. Some of the questions you are 
hearing in looking at the exhibits, I know my Navigators are 
not going door to door. They are prohibited from doing it. But 
Enroll America, which is a non-profit group, is doing that. In 
fact, I asked them to do that in my district. I want them to be 
out there making people know that this law is available.
    What you are hearing today is folks who don't like the law, 
and that is OK. They didn't vote for it, but they are trying to 
keep it from actually working, and in a district like I have, 
this is the way those folks can go and have insurance for their 
families.
    And so it is frustrating to me when they were talking 
about, you know, fingerprinting. You know, under state law 
maybe my insurance agents are fingerprinted and do background 
checks. I am not sure, but it is not in the federal law to do 
that, and so in the State of Texas that is not an issue. Now, 
insurance agents may be able to, but we don't hold these 
Navigators to a higher standard than the federal law is.
    So, again, their complaint is is that they really don't 
want the Navigators to do their job to sign people up who come 
in.
    Also, I would be offended if I had to ask my insurance 
agent, by the way, do you have a background check. You know, 
that is just amazing that some of my colleagues would do it, 
but, again, their point is they don't like the law, and they 
are trying to stop, use any way they can to discredit it, but 
it is working. I did an event in our district. We are doing 
more events in our district because we want that outreach to be 
there.
    Let me ask you something. One of the questions about the 
Navigators being paid incentives, and I am looking at Exhibit 
number 4 on page 10. Navigators are paid a base wage of $10 an 
hour with the expectation of meeting basic performance 
guidelines they will have the opportunity to earn $200 more per 
quarter if they meet 300 enrollment screenings. Federally-
qualified health center employees, I know in my district or 
actually they have physicians to be able to sign people up, we 
are talking about some of the folks who make some of the lowest 
wages that we can imagine. And it sounds like to me it would be 
a Republican thing to incentivize them to actually go out and 
do it correctly, and that is what I think that is, you know, 
welcome to Congress.
    But let me talk a little bit about one of the issues that 
have come up, and I have heard it a lot. On the floor last week 
we were forced to vote on a bill that would force the HHS IG to 
take an unprecedented role of certifying marketplace 
verification systems before people could get financial 
assistance. I want to ask you a series of questions about that.
    When an individual applies for financial assistance through 
the marketplaces, what steps are taken on the front end to 
verify that they are not under-reporting their income in order 
to get financial assistance?
    Mr. Cohen. We check against available sources of data 
including Internal Revenue Service data, including Social 
Security Administration data, and if necessary, private 
employer data through a database that is also part of that 
system to see whether----
    Mr. Green. So you have access to the IRS database, and you 
also can be checked against Equifax, for example, for current 
information?
    Mr. Cohen. That is right.
    Mr. Green. So there is upfront verification. What about on 
the back end? If an individual's taxes at the end of the year 
indicate they are not eligible for that financial assistance, 
what do they have to do?
    Mr. Cohen. The IRS is going to require that they reconcile 
that at the end of the tax year, and if they have to pay money 
back, they will have to pay money back.
    Mr. Green. Well, and I know most folks, the last thing they 
want to hear is that the IRS is going to come audit you because 
you claimed less income than you actually earned, and you are 
going to pay this back. Is there a penalty for them under, I 
assume under IRS regs? There is probably a penalty that would 
be added not only to the back taxes but to the penalty.
    Mr. Cohen. And in addition, the information that they 
provide, it says right on the application it is being provided 
under penalty of perjury and that there are penalties just for 
submitting false information if it is done, you know, 
intentionally.
    Mr. Green. My Republican friends have repeatedly asserted 
the ACA would be right with fraud and suggested people would be 
lining up in property to get financial assistance. First of 
all, the financial assistance provided through the marketplace 
may only be used to purchase health insurance.
    Mr. Cohen. That is right.
    Mr. Green. It is not correct they get a direct cash 
assistance or sent to people's homes. That is incorrect.
    Mr. Cohen. The money goes directly from--to the insurance 
company that they have chosen.
    Mr. Green. The carrier.
    Mr. Cohen. Yes.
    Mr. Green. And since they won't even see the money, it 
would be credit applied against insurance premiums, it seems 
unlikely that people are out there waiting to profit from this 
program and to put money in their pockets when they won't even 
see the money. Can you tell us about the uninsured who are 
using the exchanges in particular, and again, the State of 
Texas, we have to have a national exchange, and I appreciate 
other states who took the incentives on their own, but I also 
know HHS is supposed to put more resources in states that don't 
have a state partner. So I appreciate that coming to Texas.
    In particular I want to address the allegation I heard that 
people who buy insurance in exchanges are fraudsters and 
deadbeats. Is there any information on that? All people are 
looking for is to be able to cover their families with 
healthcare, and this is an opportunity to do it.
    Mr. Cohen. They just want to take care of themselves and 
their families. That is right.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. Murphy. Thank you, Mr. Green.
    Ms. Ellmers, you are recognized for 5 minutes.
    Mrs. Ellmers. Thank you, Mr. Chairman, and thank you, Mr. 
Cohen, for being with us again. I think you said this is the 
seventh time. Is that correct?
    Mr. Cohen. Not before this committee obviously, but, yes, 
this is the seventh time I have testified since December.
    Mrs. Ellmers. On the Hill.
    Mr. Cohen. Yes.
    Mrs. Ellmers. OK. Well, first off, I do want to go back to 
one of the comments that you made about how you believe that 
there is competition that is being created amongst the 
insurance companies with the exchanges.
    You know, very recently, I believe as recent as last week, 
in North Carolina in my district, First Carolina Care Insurance 
Company announced that they will not be part of the exchange. 
They supply health insurance to thousands in my district. This 
means less options for my constituents and now I believe for 
North Carolina there are only two insurance companies. How does 
this provide competition?
    Mr. Cohen. So the results are different from state to 
state. In many states we have seen new entrants coming in and a 
lot of choice, and in other states we have seen less.
    Mrs. Ellmers. OK.
    Mr. Cohen. As I think you probably know, the existing 
market is extremely highly concentrated in some states.
    Mrs. Ellmers. So but for my, reclaiming my time, my North 
Carolina constituents, though, will have less competition.
    Mr. Cohen. Well, I don't know what's available to them off 
the marketplace.
    Mrs. Ellmers. Let's move on because they live in North 
Carolina.
    I would like for you to move to Exhibit 7, and this is part 
of the approved application process. Now, in Exhibit 7 it says 
that the applicant basically is going to spend money on 
participant incentives by purchasing and giving out gift cards 
to obtain consumer feedback on assistance provided and consumer 
knowledge from the satisfaction of the event.
    Do you believe that this is inappropriate use for the 
Navigators to entice individuals with gift cards?
    Mr. Cohen. Well, it doesn't sound as though it is enticing. 
It sounds like they want to get feedback, and in order to 
encourage people to give them feedback, they are going to give 
them----
    Mrs. Ellmers. So are you sure that the idea of the gift 
card, so you know for sure that they would be basically given 
the information and then you don't see that as enticement?
    Mr. Cohen. That is what it looks like to me from here, but 
I can check.
    Mrs. Ellmers. So just to clarify, you don't believe that is 
enticement.
    Mr. Cohen. It doesn't look like it. No.
    Mrs. Ellmers. OK. Well, I would like to go back to a couple 
of the other issues. You know, now we have seen repeatedly that 
there are many questions based on the letter that we put out 
asking the Navigators, and of course, you know, those on the 
other side of the aisle are saying that this is intimidation, 
and certainly they have quoted me as well, and I don't believe 
that Congress asking questions and doing oversight is 
intimidation at all. We are charged with making sure that 
taxpayer dollars are utilized correctly, and I know that 
oversight is very important for you as well.
    I would like to also go to the point here where it says in 
a response, and I would like to submit this for the record 
although we have it, that basically HHS reported that we trust 
that our responsibility addresses your questions about the 
Navigator Program and the guidelines and controls in place to 
monitor the work of the awardees.
    Now, there are a number of these situations where you are 
going to be getting back to us with answers. Is that correct? 
Some of the different applicants, the questions that have been 
posed to you. It is unclear at this point how it is being 
implemented, and you have repeatedly said that you would get 
back with information and written statements.
    Mr. Cohen. Right, and I have no objection or questions 
whatsoever about----
    Mrs. Ellmers. OK. So I guess----
    Mr. Cohen [continuing]. Questions about this program 
directed to us.
    Mrs. Ellmers. OK. So do you not see that as a basis for a 
delay at this point, that we would just continue to move on 
with this process even though it is very, very unclear as to 
how these applicants are really going to be utilizing good, 
hard-earned taxpayer dollars?
    Mr. Cohen. No, I don't.
    Mrs. Ellmers. So you believe that we should continue as is?
    Mr. Cohen. Absolutely.
    Mrs. Ellmers. Regardless of being able to report back to 
Congress on this issue so that we can make sure that the 
taxpayers of this country know that their dollars are being 
utilized?
    Mr. Cohen. I don't think that your questions are a basis 
for delay.
    Mrs. Ellmers. So if I were, I am a taxpayer obviously. So 
if you were speaking to one of my constituents right now, a 
little lady that lives down the street from me, would you say 
based on all of these questions that have been posed that her 
taxpayer dollars are being utilized well?
    Mr. Cohen. Absolutely, and I would say that----
    Mrs. Ellmers. OK. Thank you.
    Mr. Cohen [continuing]. She should be very proud----
    Mrs. Ellmers. You have answered my question, but I would 
also like to submit for the record to the points about the 
issue of undermining and you know, being aggressive in this 
effort. There is an article in the ``Business Journal,'' 
Thursday, September 12, 2013, and I would like to submit this 
for the record, where my office actually reached out to 
Randolph Hospital who is a Navigator applicantee, and let me 
just read a quote from them. ``From my perspective and the 
hospital's perspective we just see this as a they are doing 
their due diligence and making sure the organizations that 
receive these funds are going to be used, and the funds in the 
manner in which they were intended, said Devin Griffith, Vice 
President of Care Continuum and Support Services in Randolph.'' 
We don't foresee this as being a problem.
    Thank you very much. I yield back the remainder of my time.
    Mr. Murphy. The gentlelady yields back and now our new 
member, Mr. Yarmuth, is recognized for 5 minutes.
    Mr. Yarmuth. Thank you very much, Mr. Chairman. I 
appreciate the courtesy of the committee, and I am very honored 
to be a part of the committee, even though it appears I just 
joined a game of Trivial Pursuit that we are worried about $10 
gift cards when we are talking about a law that will affect 300 
million Americans.
    Before I get into one line of questioning, I would like to 
plug my home State of Kentucky. Kentucky has embraced the 
Affordable Care Act. Our governor has taken the opportunity to 
provide insurance to 640,000 Kentuckians who are currently 
uninsured. We have an exchange that is a model I think for the 
country. It is called Kynect, K-y-n-e-c-t, and one of the great 
ironies of this debate is that during our state fair last month 
Kynect had a booth. A lot of people curious about what was 
available to them under the law, and after talking to the 
people at Kynect they walked away, many of them saying, wow, 
this is a lot better than ObamaCare. So that is kind of what we 
are dealing with.
    There have been a couple of comments earlier today that 
related to moves that certain corporations have made, and 
Republicans have pounced on them as kind of making an argument 
that they were somehow precipitated by the Affordable Care Act 
and somehow resulted in a negative outcome.
    One of them is UPS. UPS is not based in my district but the 
global hub is there. They are our largest employer. So when I 
heard about the fact that they were asking those employees who 
had spouses who were eligible for coverage through another 
employer to take their coverage there, and they were going to 
stop providing dependent coverage to them, that this was 
somehow something that the Affordable Care Act forced them 
into. Republicans pounced on that. My Senator Mitch McConnell 
did. So I talked to the UPS executives about this, and they 
actually said, no, we are very upset about the way Republicans 
have used us because what the Affordable Care Act did was allow 
us to make this business move, which a number of companies have 
done, and preserve our coverage at current rates and current 
contributions for our employees, about 15,000 out of the 
770,000 lives that they insure.
    So it basically was nothing that the Affordable Care Act 
did that resulted in a negative outcome, but my question to 
you, Mr. Cohen, is before the Affordable Care Act, could UPS 
have done what they did?
    Mr. Cohen. I am not familiar with that particular 
circumstance, but I don't believe so.
    Mr. Yarmuth. But UPS could have dropped their coverage 
entirely before the Affordable Care Act?
    Mr. Cohen. Oh, of course.
    Mr. Yarmuth. UPS could have made any changes they wanted 
to, could have----
    Mr. Cohen. Yes. Yes.
    Mr. Yarmuth [continuing]. Given, provided inferior 
coverage, anything they wanted to.
    Mr. Cohen. Correct.
    Mr. Yarmuth. And we all know that, I think most of us know 
that when President Obama said if you like your coverage, you 
can keep it, what he meant was that nothing in the Affordable 
Care Act would force an employer to change their coverage. Not 
that there might not be changes. In fact, some might be an 
improvement, and the issue of Walgreen's was mentioned earlier 
today. Walgreen's has decided to set up a private exchange for 
its employees, not shoving them into any government exchanges, 
so they have just chosen to make an alternative arrangement for 
providing insurance for their 160,000 employees. Isn't that 
correct?
    Mr. Cohen. That is what I understand.
    Mr. Yarmuth. And when they announced it, they said the 
reason we were able to do that, the reason we wanted to do it 
is because of the private exchanges, we can actually take, 
expand the options that were available for our employees. Right 
now they said there are only two high deductible plans, so we 
could improve their situation.
    So you could actually make an argument, I think, and I will 
make the argument that because of the Affordable Care Act and 
the creation of exchanges and the success that the exchanges 
seem to project in terms of increased competition and lowering 
costs, that this gave Walgreen's an opportunity to improve the 
situation with their employees. Would you agree you could make 
that argument?
    Mr. Cohen. I agree, and I think it is important to 
recognize that for many, many years employers have been 
struggling with the ever-increasing costs of healthcare and of 
health insurance, double-digit increases year after year, and 
what we have seen in the last few years are significantly lower 
increases in the cost of health premiums, and I think we will 
continue to see that even more when the Affordable Care Act is 
fully implemented and is a lot less uncompensated care that all 
businesses have to pay for in their rates because more people 
will have coverage.
    Mr. Yarmuth. And as a reminder when we go back to the year 
that this law was being debated in 2009, premiums for 
businesses were going up in many places as high as 38 percent. 
I think in California Blue Cross Blue Shield said everybody is 
getting a 38 percent increase. So we have seen a dramatic 
improvement since that time.
    Mr. Cohen. That is right.
    Mr. Yarmuth. Yes. Thank you very much for your testimony.
    Mr. Chairman, thank you very much. I yield back.
    Mr. Murphy. The gentleman yields back.
    I now go to Dr. Gingrey for 5 minutes.
    Mr. Gingrey. Mr. Chairman, thank you.
    Mr. Cohen, I am going to read out to you some statistics 
which you may or may not agree with, but a number of years ago 
the United States Census Bureau came out with an estimate of 47 
million people, 47 million people in this country without 
health insurance. They got this information basically by 
calling and saying, do you have health insurance? Yes or no? If 
they had just lost their job and then off of health insurance 
for 1 week, the answer was no. If the call had been received 2 
weeks later, the answer very well may have been yes.
    So 47 million people without health insurance is one thing, 
but if it were for a full year without health insurance, that 
would be a horse of an entirely different color.
    In that 47 million, let's just assume there really were 47 
million people who went uninsured for a full year. Eighteen 
million of those people make more than $50,000 a year, 18 
million of the 47 million. Ten million, it's estimated, of 
those 47 million are in this country illegally. Fourteen 
million are eligible for a safety net program, SCHIP, Medicaid, 
they just don't bother to fill out the paperwork or maybe they 
don't know, maybe they haven't been informed. But when you get 
right down to it there are probably no more than eight to 10 
million people in this country that do not have health 
insurance because they are nearly poor. They are not eligible 
for Medicare, they are not eligible for Medicaid. So the number 
was so grossly inflated, and so when I hear from the other side 
of the aisle that we Republicans who are totally opposed to 
this bill, well, yes. We were, and that is one of the main 
reasons we were.
    Now, another statistic, 1950, the average individual spent 
$500 a year on healthcare. In 2006, the latest year that I have 
statistics for, the average individual probably spent $7,000 a 
year for healthcare. But look at the life expectancy. The life 
expectancy in 1950, was the late 50s. The life expectancy in 
2006, 2007, indeed, today, is 80 years old practically.
    So the value, yes, health costs in this country is too 
high, and we need to constantly fight to lower it, find ways, 
eliminate waste, fraud, and abuse, anything that we can do to 
bring it down, but what is the value of each additional year of 
a person's life because of what we have done. Yes, because it 
is costly, but that is because of research and development, 
durable medical equipment, medical devices, well-trained 
physicians, super specialists, outstanding drugs, antibiotics 
six generation now because of the GAIN Act. So, of course, we 
were opposed to this bill. Now, look.
    Let me get directly to a question for you. In 2 weeks the 
rules say that the signup period on the exchanges commences. 
Will individuals be able to sign up for a health insurance plan 
on October the 1st, 2013?
    Mr. Cohen. Yes. Consumers will be able to sign up for a 
health plan on October, beginning on October 1.
    Mr. Gingrey. They will actually be able to pick a plan, 
whether it is Cigna, Aetna, Blue Cross Blue Shield, Platinum 
Gold, Silver, Bronze, whatever, they will be able to do that on 
October the 1st?
    Mr. Cohen. That is my expectation based on the progress 
that we have made and what I am told will be in place on 
October 1. Yes.
    Mr. Gingrey. Thank you, and this will be my last question 
because I am running out of time. Most of ObamaCare is based on 
the premise that by forcing younger people into the market, 
they will help lower the costs for the older and the sicker 
individuals. But because the penalty is so weak, there is a 
real problem if all those young people don't show up, and I am 
afraid they won't.
    In my home State of Georgia the insurance commission 
announced that for the average 27 year old no longer on their 
parents' policy, out of the basement, living on their own, 
premiums are set to rise anywhere from 85 to 198 percent. It 
seems that a $95 penalty would do little to incent young people 
like that to purchase coverage when faced with huge, huge 
premium increases.
    Mr. Cohen, a lot of the premise of ObamaCare is based on 
getting these young people to enroll, to help broaden the pool, 
lower the costs for the older and sicker. Have you heard any 
concerns that because the penalty for ObamaCare is so weak 
young people may stay out of the program in the first year, and 
if they do opt out, what will this do to the cost for the 
others?
    Mr. Cohen. So yes, I have read things speculating that the 
penalty is low and will not be a reason for people to sign up, 
but I think our research shows that most people want 
healthcare, and the barrier has been the cost, and that with 
subsidies care will be--the coverage will be affordable, and it 
will be high-quality care, and we are looking forward to 
people, including young people, enrolling in coverage.
    Mr. Murphy. Thank you.
    Mr. Gingrey. Thank you, and Mr. Chairman, thank you for 
your indulgence, and I yield back.
    Mr. Murphy. Thank you, Doctor. Mr. Griffith is next, but he 
is going to yield his time, I mean, yield first to Mr. Shimkus 
to ask questions and then to Mr. Griffith.
    Mr. Shimkus, you are recognized.
    Mr. Shimkus. Thank you. I thank my colleague. I want to 
thank the Chairman for letting me sit in. I am not on this 
subcommittee, and I want to thank the Ranking Member.
    Mr. Cohen, welcome. You are trying to do the job presented 
to you, and this is a tough committee. So let me ask a couple 
questions because I have been trying to get my, just like 
regardless of how we feel on the law, if nothing changes, and 
it gets enacted, members of the Congress are going to have to 
address our constituents' concerns and deal with that.
    So what I have tried to do is a couple things. I have tried 
to meet with my grantees. I have met with one, but some are now 
making themselves available to me, and I am just trying to do 
it to get information. So I don't know what we can do from the 
Administration's perspective to encourage the grantees to talk 
to the elected members of Congress and the regions that they 
are going to represent, but I would personally appreciate it 
because I am trying to develop a relationship because 
constituents are going to come to us. They do for Medicare, 
they come to us for Medicaid, they do for Social Security, 
veterans affairs. That is part of our job, and I just need 
help.
    So I just say that as a member appealing to the 
Administration.
    Mr. Cohen. So I think we would like to work with you on a 
process for getting you the information that you want, and are 
entitled to that won't be disruptive of the work that needs to 
be happening, particularly at this particularly critical moment 
when they are just getting ready to start their work.
    Mr. Shimkus. Yes, and I get it, I mean, because I did meet 
with one, and it was very helpful.
    The other request I have is we have asked if we can get, 
especially our staff member who deals, most of us have 
constituent service people in our Congressional districts. I 
have one that she is an expert now on Medicare and Medicaid. I 
have another one who is an expert on veterans' affairs. We have 
put forth a request to say can't I get this person trained? Can 
they sit through the training?
    Mr. Cohen. Yes.
    Mr. Shimkus. We were told no. So----
    Mr. Cohen. You were told no by?
    Mr. Shimkus. I can get you the answers, but we were told we 
can't, they wouldn't allow us to be trained. So----
    Mr. Cohen. That doesn't sound right to me.
    Mr. Shimkus. That is fine. I want my staffer to know as 
much information as they can as they are going to have to deal 
with this. Hopefully not but----
    Mr. Cohen. No. Absolutely.
    Mr. Shimkus [continuing]. My guess is they might have to 
deal with this. So when I talked to the one grantee, this is 
the point that they made. They have got 33 Navigators, they are 
dispersed throughout healthcare. We have kind of vetted that 
out in this hearing today.
    But they only have two slots for training. There is a 20-
hour, I mean, there is an online training. I have learned that 
much, and then I am from Illinois, so there is a 2-day 
training, probably an overnight, and that is kind of where we 
were researching to get our staffer involved in both those 
trainings, but the real----
    Mr. Cohen. At the state-required training or is that----
    Mr. Shimkus. Yes. That is why I am trying to figure it out. 
So but my point is this one grantee will before the operational 
date of October 1, will only be able to get two of his 
individuals through the training. I am just--and I can tell 
you, I don't want to air, but I would be glad to talk to you.
    Mr. Cohen. If our legislative folks could get in touch with 
your staff----
    Mr. Shimkus. Thank you.
    Mr. Cohen [continuing]. I would really be very happy to 
look into that in particular.
    Mr. Shimkus. And then they also raised the issue that 
getting a clearance for these people is basically the State of 
Illinois providing clearance. They will not be ready to handle 
this information because of the clearance process. So I am just 
using this opportunity to show you some of the concerns that I 
have, and I am very concerned because I want to, I don't like 
the law, I voted against the law, but I know I am going to get 
calls about how we can help my constituents, and I want to be 
ready to do that.
    Mr. Cohen. So I appreciate that very much. I have to say 
that I am concerned that some states have put in requirements 
which they are entitled to do, you know, but that are making it 
a little bit more difficult for the Navigators to get ready in 
time for October 1. So maybe we can work with you and try to 
work through some of those issues.
    Mr. Shimkus. I would appreciate it. Let me just go the 
final question. It was kind of based upon listening to your 
testimony today about, you know, whether you are going to go 
door to door, and I don't have a dog in that fight, but I am 
concerned that as we have people who are trained and qualified 
that we have a process that someone can go back to a government 
Web site and say, they are legit, they are not legit. Have you 
all considered putting a list of names of the Navigators on a 
.gov site or something?
    Mr. Cohen. So we are working through that. I think the 
latest discussion is that we will provide the list to the state 
insurance departments so that there will be a local place where 
people can go to make sure that folks are who they are supposed 
to be.
    Mr. Shimkus. And it is up to them if they put it online or 
not?
    Mr. Cohen. Right.
    Mr. Shimkus. OK. Again, Chairman, thank you very much. 
Ranking Member, thank you very much, and I yield back the time.
    Mr. Murphy. I thank the gentleman from Illinois, and I 
know, I think many offices would love to know how our staff can 
also log on to get the training as well. Thank you.
    Finally, Mr. Griffith is recognized for 5 minutes.
    Mr. Griffith. Thank you, Mr. Chairman. I appreciate that 
very much.
    Let me follow up on that. It might also be good to get some 
of these folks' IDs. In this morning's ``Bluefield Daily 
Telegraph'' there is an article about door-to-door scammers 
looking for prescription drug information. I know you can't 
stop all the bad actors out there, but we have a group running 
around in Tazewell County, Virginia, pretending to be part of 
the Appalachian Agency for Senior Citizens, and even though you 
are telling folks they are not supposed to do door to door, the 
word out there is is that some people are going to do door to 
door.
    I would now draw your attention to Exhibit 2, and you will 
notice in that proposal in the second paragraph it says that 
they propose going door to door. So even some of the proposals 
and some of the people who are supposed to be doing this 
apparently have the misunderstanding they are supposed to go 
door to door.
    One of the other questions that I have for you and then I 
will come back to Exhibit 2 so you might want to leave that 
open is that the State Corporation Commission in Virginia, 
Bureau of Insurance approved or certified as acceptable plans 
at the end of July. It was their assumption that they would 
have some information by now. They as of this morning do not 
know whether or not their plans, because Virginia is not doing 
its own exchange, it is going through federal exchange, but the 
State Bureau of Insurance was sending plans that were approved. 
They haven't heard anything back as of this morning, so they 
don't know whether these plans are actually going to be 
approved or not.
    And so I would ask you to check on that, please, and get us 
some help because we have got 7 business days left to go, and 
the State of Virginia doesn't know what plans are going to be 
approved by the----
    Mr. Cohen. I absolutely will. That surprises me because I 
know we have been in contact with the states on a regular 
basis, but I will absolutely follow through on that.
    Mr. Griffith. And I will just tell you we checked with him 
this morning. I will tell you another concern is and this 
happens in a lot of rural areas I am sure, is that there is not 
going to be competition in ten of the jurisdictions I 
represent. There is either only one shop plan or only one 
individual plan, and five of those jurisdictions, the counties 
of Buchanan, Grayson, Lee, Scott, and the city of Bristol, 
there is only one shop plan and one individual plan. And so a 
lot of my constituents do not have a whole lot of choices to 
choose from, and obviously if there is a monopoly, that may 
have affect prices as well, wouldn't you think?
    That being said I will point you back now to the Exhibit 2. 
Just so you will know that we are looking at this, you will see 
on the first page the project abstract for the Navigator, and 
it is going to cover two counties, one in Florida, one in 
Texas. On the next page you will see further that the 
application says they will have 50 exchange Navigators, and 
then you have to follow through, and we have done some of the 
math for you, and my time is running out, so I will lead you 
through some of this and then ask you to comment.
    On the next page you will see their enrollment goals, and 
they state in the second bullet point that they want enrollment 
goals about 75 percent of those they are trying to reach, and 
they indicate that through provision of literature, et cetera, 
a total of 288,750 per targeted county by the end of the 
program year or a total of 577,700, and so what we have got is 
we have got a Navigator in their statement saying that somebody 
in your office approved that they are going to enroll 577,000 
people plus by the end of the year, and that works out to 
11,500 enrollees per Navigator when you take that 577,500 
people and divide it by 50 Navigators. And, of course, remember 
these are the folks who were also not only going to be doing 
fairs and so forth but were going to be saying they were going 
to go door to door.
    Do you really believe that one Navigator can enroll 11,500 
people, taking the time that they had originally when this was 
done until the end of the year? It looks like it is 31 people a 
day counting weekends and holidays. That is not really very 
realistic, is it? I have done door knocking before, and I have 
done a lot of voter outreach, and to reach that many people a 
day and actually get them to say yes is not an easy 
accomplishment.
    Mr. Cohen. So I would say again, I mean, this is clearly a 
proposal, an application. It was approved. This grantee was 
approved. They got a grant. There is a budget process that 
happens as part of that approval. I don't, I can't tell you. I 
will commit to you to find out more information about this 
grantee if you would like, but I can't tell you whether this is 
how it ended up or whether there were any changes, and I don't 
feel comfortable commenting on it because I literally have, am 
just seeing it now. So----
    Mr. Griffith. I understand it if you could give me some 
comment later, I would appreciate that very much. These are 
concerning numbers, and obviously there are some people out 
there at least thinking they are supposed to go door to door, 
and that is of concern because then when people start going 
door to door it makes it much----
    Mr. Cohen. Right.
    Mr. Griffith [continuing]. Easier for particularly senior 
citizens to be victims of bad actors and not the real 
Navigators. They are not going to ascribe that to the real 
Navigators but folks going out there and they know people are 
supposed to be going door to door, people are coming by, and 
the next thing you know they are finding out whether or not 
they have prescription drugs, and then what they are doing 
apparently in that particular county or what the sheriff fears 
is that they will go back and rob the house, and they are more 
interested in getting the drugs than they are getting TVs, and 
they are just trying to figure out which are the prime targets. 
And so that is of concern.
    I will also tell you and I am not sure that this falls 
under your jurisdiction, but we are having a real problem with 
the doctor shortage in the Commonwealth of Virginia. There is 
an article today about some people in the eastern part of the 
state that are having a problem. I don't represent that 
particular part of Virginia, and I will tell you that recently 
one of my hospitals closed. Their number one reason was 
ObamaCare, and the aspects, the cuts to Medicare, the double, I 
call it the scissor where the states under the original plan 
were supposed to but didn't have to on the Supreme Court 
ruling, expand Medicaid and then the final straw for those 
particular folks besides the war on coal which lowered the 
economy in the area so you had less insured people, the final 
straw was the fact that they couldn't get doctors to staff the 
hospital in an adequate fashion and so now I have got folks 
that are going to have to travel an hour to an hour and a half 
to get cardiac care. It is a very serious concern. I am very 
worried about the people who live in my district and whether or 
not they are going to be able to get adequate healthcare under 
this ObamaCare Program.
    And like the others who have spoken, I, too, hope that you 
will educate us on how to enroll people, because we will get 
calls.
    Mr. Murphy. OK. The gentleman's time has expired, and with 
that, Mr. Cohen, we appreciate you coming for this committee 
again today, and I ask unanimous consent that the written 
opening statements of other members be introduced into the 
record if they wish, and without objection those will be 
entered into the record.
    I also ask unanimous consent to enter the document binder 
into the record subject to appropriate redactions by staff. I 
also ask for unanimous consent to put an article into the 
record from the ``Business Journal'' dated September 12, 2013.
    So without objection that is so ordered. \*\
---------------------------------------------------------------------------
    \*\ The information has been retained in committee files and is 
also available at http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=101323
---------------------------------------------------------------------------
    Mr. Murphy. Again, Mr. Cohen, thank you so much for coming. 
We appreciate your timely response also to members' requests 
for assistance for their staff and others in providing 
information and for the testimony that you and other members 
have asked here and the devotion of members at this hearing 
today.
    The committee rules provide that members have 10 days to 
submit additional questions for the record of the witness. And 
with that this hearing is now adjourned.
    Mr. Cohen. Thank you.
    [Whereupon, at 12:26 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                Opening statement of the Hon. Fred Upton

    We are now less than two weeks away from when the health 
law's enrollment officially kicks off. It has been a rocky 
three and a half years to date.
    Unfortunately, the law's implementation has been plagued by 
confusion, uncertainty, delays, and missed deadlines. The 
broken promises have reached near epidemic proportions. Hardly 
a day goes by without workers losing the coverage the president 
promised they could keep, or new figures detailing the looming 
rate shock in store for millions of Americans. The president's 
hometown Chicago Tribune lamented about the part-timing of 
America, and many businesses have frozen hiring altogether to 
avoid the law's costly mandates.
    Since health care reform was signed into law, two programs 
closed prematurely because they ran out of money: the Pre-
Existing Condition Insurance Plan and the Early Retiree 
Reinsurance Program. The CLASS Act was repealed. Fundamental 
requirements of the law, like the employer mandate, were 
delayed with little fanfare, and hundreds of waivers were 
handed out to health plans that could not meet the requirements 
of the law.
    In the last few weeks, even more of the law's consequences 
for American families have come to light. Some employers have 
announced that they will no longer cover spouses and children. 
Others have decided that they will need to jettison their 
retirees from company health care plans to the exchanges.
    The American people deserve better than this. They deserve 
better than a law that was crafted behind closed doors and 
rammed through despite wide opposition. Although there was no 
oversight of the law until Republicans regained control of the 
House in 2011, some have still questioned why this committee 
has investigated and conducted extensive hearings on the 
implementation of the Affordable Care Act. I believe it is our 
duty to ask questions and get the facts about how programs are 
going to work, and what they will mean for the American people, 
rather than sit back and wait until it is too late to ask 
questions after taxpayer dollars have been squandered.
    Mr. Gary Cohen, the Director of the Center for Consumer 
Information and Insurance Oversight, has appeared before this 
committee before and is here today to explain what we can 
expect when enrollment begins in less than two weeks. In April, 
Mr. Cohen testified that everything was ``on track''--but ``on 
track'' to what? Just weeks after his testimony, the 
administration delayed the employer mandate and rolled back the 
verification process, opening us up for potentially billions of 
dollars in fraud. With less than two weeks until launch, it is 
time for the administration to be frank with the American 
people. When will CCIIO finalize and announce the approved 
insurance plans and premium costs? Will states be ready? Will 
people who like their insurance plans be able to keep them? I 
hope Mr. Cohen will be able to offer specific answers to these 
questions today rather than vague assurances that everything is 
on track.

                                #  #  #

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 

                                 <all>

</pre></body></html>
